<html>
<title> - EXAMINING LOCAL SOLUTIONS TO STRENGTHEN FEDERAL JOB TRAINING PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 EXAMINING LOCAL SOLUTIONS TO STRENGTHEN FEDERAL JOB TRAINING PROGRAMS

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN LAS VEGAS, NV, AUGUST 30, 2011

                               __________

                           Serial No. 112-36

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
68-116                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a>  


                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Lynn C. Woolsey, California
Duncan Hunter, California            Ruben Hinojosa, Texas
David P. Roe, Tennessee              Carolyn McCarthy, New York
Glenn Thompson, Pennsylvania         John F. Tierney, Massachusetts
Tim Walberg, Michigan                Dennis J. Kucinich, Ohio
Scott DesJarlais, Tennessee          Rush D. Holt, New Jersey
Richard L. Hanna, New York           Susan A. Davis, California
Todd Rokita, Indiana                 Raul M. Grijalva, Arizona
Larry Bucshon, Indiana               Timothy H. Bishop, New York
Trey Gowdy, South Carolina           David Loebsack, Iowa
Lou Barletta, Pennsylvania           Mazie K. Hirono, Hawaii
Kristi L. Noem, South Dakota         [Vacant]
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on August 30, 2011..................................     1

Statement of Members:
    Heck, Hon. Joseph J., a Representative in Congress from the 
      State of Nevada............................................     4
        Prepared statement of....................................     5
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    McKeon, Hon. Howard P. ``Buck,'' a Representative in Congress 
      from the State of California...............................     5
        Prepared statement of....................................     6
    Miller, Hon. George, senior democratic member, Committee on 
      Education and the Workforce, prepared statement of.........     8

Statement of Witnesses:
    Aguero, Jeremy A., principal analyst, Applied Analysis.......    12
        Prepared statement of....................................    14
    Ball, John, executive director, Workforce Connections........    37
        Prepared statement of....................................    39
    Enns, Darren, secretary/treasurer, Southern Nevada Building 
      and Construction Trades Council............................    15
        Prepared statement of....................................    17
    Guthrie, Edward, executive director, Opportunity Village.....    32
        Prepared statement of....................................    35
    Hafen, Hon. Andy, Mayor, City of Henderson, NV...............     9
        Prepared statement of....................................    11
    Metty-Burns, Rebecca, executive director, division of 
      workforce & economic development, College of Southern 
      Nevada.....................................................    49
        Prepared statement of....................................    51
    Walker, LeRoy, regional vice president, human resources, St. 
      Rose Dominican Hospitals...................................    18
        Prepared statement of....................................    20

Additional Submissions:
    Mr. Aguero:
        Slides: ``Overview of Southern Nevada Employment and 
          Workforce Trends''.....................................    66
    Mr. Guthrie:
        Letter, dated June 20, 2011, from Terry Farmer, chief 
          executive officer, ACCSES..............................    98
        ``The 2010 Community Impact Assessment of Las Vegas' 
          Opportunity Village,'' Internet address to.............   102
    Mr. Heck:
        Letter, dated September 6, 2011, from Brad Deeds, adult 
          education coordinator, Nevada State GED Administrator..    60
        Kelly, John, NISH, prepared statement of.................    61
        Patchett, Brian, president and CEO, Easter Seals Southern 
          Nevada, prepared statement of..........................    63
    Mr. Kline:
        Milam, Danielle, development director, Las Vegas-Clark 
          County Library District, prepared statement of.........    59


                       EXAMINING LOCAL SOLUTIONS
                         TO STRENGTHEN FEDERAL
                         JOB TRAINING PROGRAMS

                              ----------                              


                        Tuesday, August 30, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 11:00 a.m., at the 
Opportunity Village, Ralph and Betty Engelstad Campus, 6050 
South Buffalo Drive, Las Vegas, Nevada, Hon. John Kline 
[chairman of the committee] presiding.
    Present: Representatives Kline, McKeon and Heck.
    Staff Present: Casey Buboltz,
    Coalitions and Member Services Coordinator; Rosemary 
Lahasky, Professional Staff Member; Brian Melnyk, Legislative 
Assistant; Brian Newell, Deputy Communications Director; and 
Livia Lam, Minority Senior Labor Policy Advisor.
    Chairman Kline. A quorum being present, the committee will 
come to order.
    Good afternoon, everyone. Welcome to the latest in a series 
of field hearings for the Education and Workforce Committee.
    It is good to be here in Nevada. We appreciate the time of 
our witnesses, the time the witnesses have taken to be with us 
today, and we look forward to hearing their testimony.
    I would really like to extend my personal appreciation to 
the leadership and staff of the Opportunity Village and 
recognize the men and women who have benefited from the support 
offered by this remarkable organization.
    Opportunity Village has provided hope to more than a 
thousand individuals with disabilities, and has stood as a 
model of service to the community. Through your hospitality, 
you've demonstrated why this organization stands out as the 
favorite charity of Las Vegas.
    We're grateful for your service and for hosting our hearing 
and for the wonderful cookies that some of us were afforded, 
the opportunity to be made right here, I think some 3,500 a 
day. Boy, are they good. So thank you for all of that 
hospitality.
    Since the start of the 112th Congress, members of this 
committee have made it a priority to actively engage with the 
men and women whose lives are touched by the policies developed 
in Washington.
    Today marks the sixth field hearing held by this committee 
during the last eight months--we are getting some feedback here 
in the sound system.
    There we go, okay.
    Today this field hearing reflects our commitment to 
bringing the voices and experiences of the people to federal 
policymakers. These hearings also reflect our belief that many 
of the most innovative solutions come not from the nation's 
capital, but from workers, employers, citizens, and local 
leaders in towns across America.
    With a bureaucracy as vast and complicated as the one that 
resides in Washington, it is easy to leave government programs 
on auto-pilot, resulting in less effective support for those in 
need and wasted taxpayer dollars. Unfortunately, this sums up 
the state of the nation's job training programs.
    According to a recent report by the non-partisan Government 
Accountability Office, the federal government administers 47 
separate job training programs spread across nine different 
agencies, representing annual taxpayer investment of $18 
billion. 44 programs overlap with at least one other program. 
Only five programs, only five have been evaluated to determine 
whether they are effectively serving workers.
    Our deficits and debt are skyrocketing and unemployment 
continues to hover around nine percent, and higher here in 
Nevada. Wasting the hard-earned dollars of taxpayers and 
squandering support for workers is unacceptable.
    In 1998, Congress passed the Workforce Investment Act, 
which provided workers with a system of one-stop centers that 
offer the support they need in a more efficient and effective 
way, and took a first step toward streamlining job training and 
employment programs. However, this law is long overdue for 
reform and as the GAO report makes clear, we have a lot of work 
ahead of us to enhance support for workers and promote better 
use of taxpayer dollars.
    Just as importantly, we must ensure these services reflect 
the realities of today's workforce. Last week the Congressional 
Budget Office released a grim report on our nation's economic 
future. In the report, the non-partisan budget office projects 
that a year from now unemployment may be as high as eight and a 
half percent. The report cites a number of structural 
impediments hindering hiring across the country, including ``a 
mismatch between the requirements of existing job openings and 
characteristics of job seekers.''
    Simply put, unemployed workers would have a better shot at 
finding a job if they had the skills and training needed for 
today's workplaces. Many States, including Nevada, have 
advanced positive solutions that try to bridge the gap between 
workers and employers. I look forward to learning more about 
these efforts and how we can advance similar initiatives in 
Washington.
    Before I close, I would like to thank Congressman Buck 
McKeon, a senior member of this committee, a former chairman of 
this committee, and currently chairman of the House Armed 
Services Committee, for being with us and for his dedication to 
the nation's workers. Thank you, Buck. He has long championed 
job training reform, and his leadership will be extremely 
important as this process moves forward.
    I would also like to thank Congressman Joe Heck for service 
on the committee and for his continued advocacy for a better 
approach to support workers in a more fiscally responsible way.
    [The statement of Mr. Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
           Chairman, Committee on Education and the Workforce

    Good afternoon, and welcome to the latest in a series of field 
hearings of the Education and the Workforce Committee. It is good to be 
here in Nevada. We appreciate the time our witnesses have taken to be 
with us today, and we look forward to hearing their testimony.
    I would like to extend my personal appreciation to the leadership 
and staff of the Opportunity Village, and recognize the men and women 
who have benefited from the support offered by this remarkable 
organization. Opportunity Village has provided hope to thousands of 
individuals with disabilities, and has stood as a model of service to 
the community. Through your hospitality, you've demonstrated why this 
organization stands out as the ``favorite charity'' of Las Vegas. We 
are grateful for your service and for hosting our hearing.
    Since the start of the 112th Congress, members of this committee 
have made it a priority to actively engage with the men and women whose 
lives are touched by the policies developed in Washington. Today marks 
the sixth field hearing held by this committee during the last eight 
months, reflecting our commitment to bringing the voices and 
experiences of the people to federal policymakers. These hearings also 
reflect our belief that many of the most innovative solutions come not 
from the nation's capital, but from workers, employers, citizens, and 
local leaders in towns across America.
    With a bureaucracy as vast and complicated as the one that resides 
in Washington, it is easy to leave government programs on auto-pilot, 
resulting in less effective support for those in need and wasted 
taxpayer dollars. Unfortunately, this sums up the state of the nation's 
job training programs.
    According to a recent report by the non-partisan Government 
Accountability Office, the federal government administers 47 separate 
job training programs spread across nine different agencies, 
representing an annual taxpayer investment of $18 billion. Forty-five 
programs overlap with at least one other program. Only five programs 
have been evaluated to determine whether they are effectively serving 
workers.
    Our deficits and debt are skyrocketing and unemployment continues 
to hover around 9 percent. Wasting the hard-earned dollars of taxpayers 
and squandering support for workers is unacceptable.
    In 1998, Congress passed the Workforce Investment Act, which 
provided workers with a system of one-stop centers that offer the 
support they need in a more efficient and effective way, and took a 
first step toward streamlining job training and employment programs. 
However, this law is long overdue for reform. And as the GAO report 
makes clear, we have a lot of work ahead of us to enhance support for 
workers and promote better use of taxpayer dollars.
    Just as importantly, we must ensure these services reflect the 
realities of today's workforce. Last week, the Congressional Budget 
Office released a grim report on our nation's economic future. In the 
report, the non-partisan budget office projects that a year from now 
unemployment may be as high as 8.5 percent. The report cites a number 
of structural impediments hindering hiring across the country, 
including ``a mismatch between the requirements of existing job 
openings and characteristics of job seekers.''
    Simply put, unemployed workers would have a better shot at finding 
a job if they had the skills and training needed for today's 
workplaces. Many states, including Nevada, have advanced positive 
solutions that try to bridge the gap between workers and employers. I 
look forward to learning more about these efforts and how we can 
advance similar initiatives in Washington.
    Before I close, I would like to thank Congressman Buck McKeon, a 
senior member of this committee and chairman of the House Armed 
Services Committee, for being with us and for his dedication to the 
nation's workers. He has long championed job training reform, and his 
leadership will be extremely important as this process moves forward.
    I would also like to thank Congressman Joe Heck for his service on 
the committee and for his continued advocacy for a better approach to 
support workers in a more fiscally responsible way. Without any 
objection, I will now yield to Congressman Heck for some brief opening 
remarks.
                                 ______
                                 
    Chairman Kline. Without any objection, I would now yield to 
Congressman Heck for some brief opening remarks.
    Mr. Heck. Thank you, Mr. Chairman.
    Good morning, and welcome to the Third District of Nevada. 
I am very pleased in our great State and I'm pleased we are 
hosting the latest in a series of field hearings of the House 
Committee on Education in the Workforce.
    I'd also like to thank all our witnesses for taking time to 
be here this morning and joining us. Your testimony will be 
very valuable as we examine ways to improve job-training 
opportunities both here in the Silver State and across the 
nation, and of course, Mr. Chairman, I want to thank you for 
the opportunity to hold this field hearing here, as well as 
Congressman McKeon for taking the time out of his busy schedule 
to participate.
    It goes without saying that America is struggling, and 
Nevada is struggling with high unemployment and economic 
uncertainty. Jobs are scarce. Competition for employment 
opportunities is fierce. In Nevada, more than one in ten 
citizens is jobless. In fact, our State has had the worst 
unemployment record in the nation for more than a year. Across 
the country, the unemployment rate has remained above eight 
percent for 30 months and this is absolutely unacceptable.
    Policymakers must do everything possible to foster a strong 
and competitive workforce. Right now, millions of out-of-work 
Americans are desperate for opportunities and assistance as 
they try to build a better future for their families. For these 
Americans and Nevadans, employment assistance and job training 
services can be invaluable. Unfortunately, too many of these 
important programs are not working efficiently.
    In an effort to provide better support to the State's 
struggling workforce, the Southern Nevada Workforce Investment 
Board, also known as Workforce Connections, has recently taken 
steps to engage with the local business community. This 
burgeoning relationship helps Workforce Connections ensure 
effective job training is available for employment in the 
region's high-growth job sectors, including healthcare and 
green energy. The advice the board solicits from employers 
enhances the services offered, improves job placement 
opportunities, and encourages a more strategic and effective 
use of taxpayer resources.
    The efforts underway in Southern Nevada can serve as a 
guideline as we work to modernize the Workforce Investment Act, 
and that's why members of the House Committee on Education and 
the Workforce are here today. We want to hear from the business 
and community leaders about the local economic climate and the 
needs of the workforce. We want to learn from employment and 
job training officials about the ways they are helping job 
seekers, and where they see a need for improvement.
    As we work to build a stronger, more competitive workforce, 
ensuring access to effective job-training opportunities and 
employment services will be critical. Your thoughts and 
insights will help us modernize federal job-training programs 
to ensure they are more effective, more constructive, and more 
resourceful in the future.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The statement of Mr. Heck follows:]

     Prepared Statement of Hon. Joseph J. Heck, a Representative in
                   Congress From the State of Nevada

    Good morning, and welcome to the third district of Nevada. I am 
very pleased our great city of Las Vegas is hosting the latest in a 
series of field hearings of the House Committee on Education and the 
Workforce. I'd like to thank our witnesses for joining us; your 
testimony will be very valuable as we examine ways to improve job 
training opportunities both here in the Silver State and across the 
nation.
    It goes without saying that America is struggling with high 
unemployment and economic uncertainty. Jobs are scarce, and competition 
for employment opportunities is fierce. In Nevada, more than one in 10 
citizens is jobless. In fact, our state has had the worst employment 
record in the nation for more than a year. Across the country, the 
unemployment rate has remained above 8 percent for 30 months. This is 
absolutely unacceptable.
    Policymakers must do everything possible to foster a strong and 
competitive workforce. Right now, millions of out-of-work Americans are 
desperate for opportunities and assistance as they try to build a 
better future for their families. For these Americans, employment 
assistance and job-training services can be invaluable. Unfortunately, 
too many of these important programs are not working efficiently.
    A recent report by the non-partisan Government Accountability 
Office found 47 separate and distinct job-training programs 
administered by 9 federal agencies. Of these 47 programs, 44 overlap, 
offering similar services to the same disadvantaged workers. Despite 
the $18 billion price tag for these programs, very few have been 
evaluated for effectiveness. There is obvious need to reduce costs and 
streamline support in federal workforce training services.
    In an effort to provide better support to the state's struggling 
workforce, the Southern Nevada Workforce Investment Board, also known 
as Workforce Connections, has recently taken steps to engage with the 
local business community. This burgeoning relationship helps Workforce 
Connections ensure effective job-training is available for employment 
in the region's high-growth job sectors, including healthcare and green 
energy. The advice the board solicits from employers enhances the 
services offered, improves job placement opportunities, and encourages 
a more strategic and effective use of taxpayer resources.
    The efforts underway in Southern Nevada can serve as a guideline as 
we work to modernize the Workforce Investment Act, and that's why 
members of the House Committee on Education and the Workforce are here 
in Las Vegas today. We want to hear from business and community leaders 
about the local economic climate and the needs of the workforce. We 
want to learn from employment and job-training officials about the ways 
they are helping job-seekers, and where they see a need for 
improvement.
    As we work to build a stronger, more competitive workforce, 
ensuring access to effective job-training opportunities and employment 
services will be critical. Your thoughts and insight will help us 
modernize federal job training programs to ensure they are more 
effective, more constructive, and more resourceful in the future. With 
that, I yield back the balance of my time.
                                 ______
                                 
    Chairman Kline. All right, thank you, gentlemen.
    I recognize Mr. McKeon for any opening remarks he may have.
    Mr. McKeon. Thank you, Mr. Chairman. I would like to submit 
my remarks for the record, but I would like to just take a 
minute and say a couple of things.
    I commend you, first of all, for coming here to hold this 
hearing. We can sit in Washington and hold hearings, but it's 
very important to get out in the country to find out what's 
really going on, and I commend you for this and other field 
hearings that you have held. And I commend Mr. Heck, for you 
are fortunate to have him representing you here in the 
Congress.
    I've had the opportunity of serving with him. Both of these 
gentlemen also serve on the Armed Services Committee, the 
Chairman as a marine, and Mr. Heck is a Colonel in the Army, 
and they have provided great service to the country. I want to 
thank the witnesses for being here and for all of you for 
coming to participate in this.
    Unemployment is one of the biggest problems we have in the 
country and it is not the same throughout the country. Right 
around Virginia, Washington, D.C., in that area, unemployment 
is only about six percent. There's a lot of government money 
that seems to find its way into that area.
    But when you come out into the heartland, my district, I 
come to the Nevada border. I have the largest district in 
California, so I'm a neighbor all along the Nevada border, up 
to Lake Topaz, where 395 comes into Nevada, and I have a son 
that lives here in Las Vegas. So I try to get over here to see 
him and see what's going on, and I have children that live in 
Utah, so I drive through here at times to get up and visit 
them.
    But I have been on this committee now since 1993 and served 
as the subcommittee chair and wrote--when I say ``wrote,'' the 
staff always writes, but the legislation Workforce Investment 
Act and that was passed in 1996 the first time. But we didn't 
get it through the whole process until 1998, and it has not 
been reauthorized since then and it really needs to be because 
when you write legislation you start out with a goal, but by 
the time it gets through the whole process, it's not what you 
envisioned.
    We started out trying to take many federal programs and 
block grant them out and get the leadership involved at the 
local area where the decisions really should be made.
    There are a lot of problems with the Act that need to be 
cleared up and I encourage the Chairman and want to work 
closely with him as we go through to reauthorize this bill. It 
really is important. So hearing from you here today as to the 
things that you see that we can improve in the Act, it's very, 
very important.
    Mr. Chairman, I yield the remainder of my time.
    Chairman Kline. I thank the gentlemen.
    [The statement of Mr. McKeon follows:]

        Prepared Statement of Hon. Howard P. ``Buck'' McKeon, a
        Representative in Congress From the State of California

    Mr. Chairman, thank you for calling this very important hearing to 
examine local solutions to strengthen our nation's workforce training 
system; and thank you to Congressman Heck for hosting this hearing. I 
am pleased to have the opportunity to be here and I thank our witnesses 
for taking the time to come testify before the Committee. I look 
forward to hearing how we can make WIA more effective at the local 
level.
    Mr. Chairman, it is imperative that the federal government create 
favorable conditions for job creation and promote policies that help 
get Americans back to work. Republicans in the House of Representatives 
have been working diligently to help create jobs. We have passed 
legislation to allow our domestic energy resources to be developed 
which will create thousands of jobs; we have ensured that there will be 
no new taxes and have thwarted any attempts to raise taxes; we have 
sought to reduce the crushing regulatory burden that constricts the 
growth of businesses; and, as evidenced by this hearing, Republicans 
are working to ensure that our nation's workforce training system 
remains strong through a reasonable set of reforms.
    On June 22, 2011, three of my Republican colleagues joined me in 
introducing the Workforce Investment Improvement Act (H.R. 2295), a 
bill that builds on reforms proposed by Republicans in recent years to 
strengthen and improve programs and services under WIA with the 
concurrent goals of putting Americans back to work and making the 
United States more competitive in the 21st century. I consider the 
reauthorization of WIA to be one of the most pressing items on the 
Education and the Workforce Committee agenda and see it as an integral 
step to rebuilding our changing economy.
    Modernizing our job training infrastructure has been one of the 
highest priorities of my work on the committee, and will continue to 
be. I share the belief with my Republican colleagues that the workforce 
training system needs to be dynamic and results-oriented so it can 
effectively serve job seekers and workers in need of retraining. Now 
more than ever it is imperative that the system functions for the 
benefit of workers.
    The key goals of the bill include:
    <bullet> eliminating duplication
    <bullet> strengthening coordinating infrastructure
    <bullet> improving accountability
    <bullet> enhancing the role of employers
    <bullet> and increasing state and local flexibility to better serve 
our nation's workers
    Together, these reforms will ensure the nation's workforce 
development system can respond quickly and effectively to the changing 
needs of job seekers and those in need of training. Throughout the 
process I have worked with numerous stakeholders to improve the 
legislation and have sought to fully understand from the business 
community exactly what is needed in order to match job skills to jobs 
available.
    The past Majority on the Education and Labor Committee spent four 
years talking about the plight of American workers but did virtually 
nothing to help those workers. It is unfortunate that Democrats refused 
to address the need to reauthorize the Workforce Investment Act when 
our nation's unemployment rate continued to climb.
    I worked for over six months to make this a bipartisan effort and I 
was willing to meet my Democratic colleagues halfway on policy, but 
ultimately they decided they are not willing to compromise for the 
benefit of American workers. Let me be clear, American workers looking 
to sharpen their skills to keep up with the changing economy don't see 
WIA as a partisan, political issue. They see WIA as an opportunity to 
protect their livelihoods. So while folks in Washington bicker about 
minutiae, workers of all political stripes are being left behind. House 
Republicans understand the urgency and are working to reauthorize WIA 
in the 112th Congress.
    13.9 million Americans are currently unemployed with a 9.1% 
unemployment rate. The number of long-term unemployed (those jobless 
for 27 weeks and over) is hovering around 6.2 million. In July, 44.4 
percent of unemployed persons were jobless for 27 weeks or more. The 
unemployment situation is not just about cyclical unemployment; there 
is a structural unemployment component which needs to be addressed, and 
the reauthorization of WIA is the best way the federal government can 
play a role. In order to integrate these workers back into our economy 
we must have a targeted Workforce Investment Act reauthorization, and 
that is what I am proposing.
    My WIA reauthorization bill will do the following:
    <bullet> Increase efficiency and focus on results
    <bullet> Eliminate duplication and waste by consolidating funding 
to streamline program administration and enhance efficiency at the 
state and local levels
    <bullet> Streamline state and local workforce investment boards by 
providing greater representation and influence for local business 
representatives, education officials, community groups, and 
representatives of employees
    <bullet> Ensure the one-stop delivery system is demand-driven
    <bullet> Strengthen employment services to help job seekers get 
back to work by incorporating current employment service functions into 
the description of a new category known as work ready services
    <bullet> One-stop centers will be required to provide labor 
exchange services, including job search and placement assistance, as 
well as appropriate recruitment services for employers
    <bullet> Remove barriers to job training by eliminating arbitrary 
provisions of current law that prevent job seekers from accessing 
training immediately
    <bullet> Create Workforce Innovation in Regional Economic 
Development (WIRED) plans which will allow regional areas to integrate 
workforce development programs, one-stop services, and community and 
economic development funds into a comprehensive workforce development 
system
    I know WIA reauthorization is a top priority for Chairman Kline and 
I look forward to working with him further to make that a reality. We 
must help put Americans back to work, equipped with skills that will 
aid their success. Members need to understand that this is not just a 
Washington initiative, but an initiative favored by workers all across 
America. Thank you again for holding this hearing and I look forward to 
working to strengthen our nation's workforce training system.
                                 ______
                                 
    Chairman Kline. I would point out Mr. McKeon is from a 
rather large family and I'm sure that the economy in Eastern 
California, throughout Nevada, and Utah are grateful for that 
involvement.
    Pursuant to Committee Rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
hearing record. Without objection, the hearing record will 
remain open for 14 days to allow statements, questions for the 
record, and other extra material referenced during the hearing 
to be submitted in the official hearing record.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member,
                Committee on Education and the Workforce

    WIA is a lifeline for hundreds of thousands of Americans. Job 
training is a critical tool in helping put Americans back to work. 
Unfortunately, Republicans want to eliminate these opportunities. 
Thankfully, Democrats were able to protect these services in GOP's 
latest attempt to zero out these effective programs.
    The Republicans have yet to offer any plan or an outline of a plan 
that would help the hundreds of thousands of unemployed workers in 
Nevada who are desperate for a job. Instead, time and time again 
Republicans have threatened the job training opportunities that 
Nevada's unemployed or dislocated workers rely on to try and get ahead 
and to support their families. The Republicans' lack of real commitment 
to the serious unemployment crisis we're facing is a threat to our 
economic stability, to sustainable job growth and our global 
competitiveness.
                                 ______
                                 
    Mr. Kline. Now we get to the point of the introduction of 
witnesses, and for that, I am pleased to yield to my colleague, 
Mr. Heck.
    Mr. Heck. Thank you, Mr. Chairman. We have two very 
distinguished panels of witnesses today. I would like to begin 
by introducing the first panel.
    Mayor Andy Hafen was elected as the City of Henderson's 
12th mayor in June 2009, which is my mayor. During his elected 
service, Mayor Hafen has seen Henderson become the second 
largest city in Nevada, be named as one of the top 100 places 
to live in the United States. Mayor Hafen is active in the 
Nevada League of Cities, served as the secretary-treasurer, 
second vice-president, and ultimately president, elected in 
2006.
    Mr. Jeremy Aguero is the Principal Analyst for Applied 
Analysis, well known to those of us in the Las Vegas community 
for his in-depth analysis of our economic condition. He has 
been with the firm since its inception in 1997. His areas of 
expertise include economic analysis, operational model 
development, and fiscal impact analysis. Mr. Aguero attended 
the University of Nevada Las Vegas, where he graduated with 
honors in 1996. After college Mr. Aguero spent 18 months with 
Coopers & Lybrand and began his tenure with Applied Analysis.
    Mr. Darren Enns is the current Secretary Treasurer of the 
Southern Nevada Building and Construction Trades Council. 
Anybody who knows the impact of unemployment in southern 
Nevada, it is those members of the building and trades. Mr. 
Enns also sits on the executive board of the Nevada State AFL-
CIO and is a member of the Plasterers and Cement Mason Local 
797. Mr. Enns was born and raised in Southern Nevada. He and 
his wife Elaine have four sons.
    Mr. LeRoy Walker serves as the Regional Vice President of 
Human Resources for the St. Rose Dominican Hospitals in Nevada. 
Through his leadership St. Rose has been the recipient of 
various local and national awards. Mr. Walker also serves on 
the Southern Nevada Workforce Investment Board, University of 
Southern Nevada board for their MBA program, and the Nevada 
Health Care Sector Council.
    Chairman Kline. Thank you, Dr. Heck.
    Before I recognize each of you to provide your testimony, 
let me briefly explain the lighting system. We discussed this 
before the hearing started, but for a refresher for the 
witnesses and for all in the room, let me explain how this 
works.
    You will each have five minutes to present your testimony. 
When you begin, the light in front of you will turn green; when 
one minute is left, the light will turn yellow; when your time 
is expired, the light will turn red, at which point I would ask 
you to wrap up your remarks as best as possible.
    After everyone has testified, members will each have five 
minutes to ask questions of the panel, and we will stay with 
that, going back and forth, until we've had a chance to explore 
the subject in some depth.
    I would now like to recognize the Mayor, the Honorable Andy 
Hafen for five minutes. Sir, you are recognized.

            STATEMENT OF HON. ANDY A. HAFEN, MAYOR,
                       CITY OF HENDERSON

    Mr. Hafen. Thank you. Good morning, Chairman Kline, members 
of the committee. On behalf of my colleagues on the city 
council and the residents of Henderson, I thank you for the 
opportunity to appear before you.
    Before I begin my testimony, I'd also like to express my 
thanks to Congressman Heck. Congressman Heck represents the 
City of Henderson and we greatly appreciate him and his 
gracious invitation to testify before you on a subject that's 
so important to our future.
    I have been asked to speak about our economic situation, 
the jobs outlook, and some of the initiatives we've undertaken 
to help improve the employment situation in Henderson. I know 
our time is limited, so I'll get straight to the point on the 
issues I have been asked to discuss.
    As you're probably aware, prior to 2008 our economy was 
stronger than it had ever been. For many years Henderson was 
recognized as one of the fastest growing cities in America.
    However, around the third quarter of 2008 we saw signs of 
an impending economic downturn and realized that our years of 
growth and economic prosperity were in jeopardy. The ensuing 
recession caused some very strong declines in our largest 
revenue streams, in particular, our consolidated tax and 
property tax.
    The consolidated tax, or C-Tax, is made up of sales tax, 
real property transfer taxes, and several other smaller revenue 
streams. In 2008 that consolidated tax revenue was in excess of 
$92 million, and our consolidated tax last year was just over 
$70 million.
    On the property tax side, in 2008 our assessed property 
valuation was $15.9 billion, and our property tax collections 
were in excess of $78 million.
    Our assessed valuation this year is less than $10 billion, 
and our property tax collections are estimated to be around $66 
million.
    Losses in these and other revenue streams caused by 
foreclosure, decreased property values, high unemployment, lack 
of growth and other factors have forced our city to cut more 
than $105 million from our budget and to reduce our staff 
complement by more than 200.
    According to the Executive Office of the President's 
Council of Economic Advisors, every $92,000 in government 
spending results in one private sector job. Given the dramatic 
shortfalls to ours and every other budget in this region, that 
means a diminishment in the amount of job growth we, as a city, 
are able to promote.
    Weak economic indicators and continued uncertainty about 
our economy continue to stall reinvestment and growth.
    According to the United States Bureau of Labor and 
Statistics, the national unemployment rate is about 9.1 
percent. Nevada, by contrast, currently sits at 12.9 percent, 
and Southern Nevada unemployment is at 14 percent.
    All of these factors combined to create a scenario that is 
certainly ripe with challenge when it comes to job creation and 
recovery.
    However, in Henderson we've made it a priority in our 
strategic planning efforts to focus on ways to promote a strong 
and diverse local economy and we believe that despite our 
continued economic struggles, we've been achieving success in 
that area.
    Every year we review the job outlook in Henderson to ensure 
we are placing priority in industry clusters that have the 
highest potential to create new jobs.
    Over the last few years our primary focus has resulted in 
two key areas. The first has been private education, and the 
second has been healthcare.
    Over the last few years, our efforts in Henderson have been 
able to bring 13 private colleges and universities, the largest 
number in any State--in any city in the State. We recognize the 
value of education as a pathway for good-paying jobs and 
diversification, so this has become a priority for us in our 
economic development efforts.
    In the healthcare arena, we have created the Southern 
Nevada Medical Industry Coalition. This is a regional 
collaboration involving members of government, academia, 
doctors, nurses, businesses and chambers of commerce.
    This effort has grown significantly and is now a private, 
non-profit with statewide representation and is one of the most 
successful organizations in the region tapping the federal 
Workforce Connections funding.
    This past year alone they've successfully implemented 
creative programs matching healthcare training applicants with 
real jobs in the private sector.
    As we continue to research growth opportunities for 
employment, we now find ourselves with a focus on alternative 
energy, in particular, solar energy. In October, the City of 
Henderson will host the first annual Global Solar Summit. We've 
invited the leading solar panel manufacturers from Asia, 
Europe, and America to convene in Henderson for a unique 
business development conference.
    We will be matching the leaders of these companies with 
regional utilities and solar developers. Over 300 companies 
will be in attendance, in addition to our federal workforce 
training officials, to promote training and growth 
opportunities.
    We have been working hard to identify the best industries 
for our region and have heavily utilized federal workforce 
training programs to support our efforts.
    In conclusion, I would just like to say we look forward to 
working together to create jobs, educate and train the 
workforce of today and tomorrow, and to rebuild our economy 
that is bright, vibrant and full of promise for our people. 
Thank you very much.
    Chairman Kline. Thank you, sir.
    [The statement of Mr. Hafen follows:]

  Prepared Statement of Hon. Andy Hafen, Mayor, City of Henderson, NV

    Good morning Chairman Kline, members of the committee. On behalf of 
my colleagues on the city council and the residents of our great city, 
I thank you for the opportunity to appear before you.
    Before I begin my testimony, I'd also like to express my thanks to 
Congressman Heck.
    Congressman Heck represents the city of Henderson and we greatly 
appreciate him and his gracious invitation to testify before you on a 
subject that's so important to our future.
    I've been asked to speak about our economic situation, the jobs 
outlook, and some of the initiatives we've undertaken to help improve 
the employment situation in Henderson.
    I know our time is limited, so I'll get straight to the point on 
the issues I've been asked to discuss.
    As you're probably aware, prior to 2008 our economy was stronger 
than it had ever been. For many years Henderson was recognized as one 
of the fastest growing cities in America.
    However, around the third quarter of 2008, we saw signs of an 
impending economic downturn and realized that our years of growth and 
economic prosperity were in jeopardy.
    The ensuing recession caused some very strong declines in our 
largest revenue streams, in particular our Consolidated Tax and 
Property Tax.
    The Consolidated Tax, or C-Tax, is made up of sales tax, real 
property transfer taxes, and several other smaller revenue streams.
    In 2008 that Consolidated Tax revenue was in excess of $92 million 
dollars. Our Consolidated Tax last year was just over $70 million 
dollars.
    On the Property Tax side, in 2008 our assessed property valuation 
was $15.9 billion dollars, and our Property Tax collections were in 
excess of $78 million.
    Our assessed valuation this year is less than $10 billion and our 
Property Tax collections are estimated to be around $66 million 
dollars.
    Losses in these and other revenue streams caused by foreclosure, 
decreased property values, high unemployment, lack of growth and other 
factors have forced our city to cut more than $105 million dollars from 
our budget and to reduce our staff complement by more than 200.
    According to the Executive Office of the President's Council of 
Economic Advisors, every $92,000 dollars in government spending results 
in one private sector job.
    Given the dramatic shortfalls to ours, and every other budget in 
this region, that means a diminishment in the amount of job growth we, 
as a city, are able to promote.
    Weak economic indicators and continued uncertainty about our 
economy continue to stall reinvestment and growth.
    According to the U.S. Bureau of Labor & Statistics, the national 
unemployment rate is at 9.1 percent.
    Nevada, by contrast, currently sits at 12.9 percent, and Southern 
Nevada unemployment is at 14 percent.
    All of these factors combine to create a scenario that is certainly 
ripe with challenge when it comes to job creation and recovery.
    However, in Henderson we've made it a priority in our strategic 
planning efforts to focus on ways to promote a strong and diverse local 
economy, and we believe that despite our continued economic struggles 
we've been achieving success in that area.
    Every year we review the job outlook in Henderson to ensure we are 
placing priority in industry clusters that have the highest potential 
to create new jobs.
    Over the last few years, our primary focus has rested in two key 
areas. The first has been private education as an industry. The second 
has been healthcare.
    Through our efforts, Henderson is now home to 13 private colleges 
and universities, the largest number of any city in the state.
    We recognize the value of education as a pathway for good paying 
jobs and diversification, so this has become a priority for us in our 
economic development efforts.
    In the healthcare arena, we've created the Southern Nevada Medical 
Industry Coalition.
    This is a regional collaboration involving members of government, 
academia, doctors, nurses, businesses and chambers of commerce.
    This effort has grown significantly and is now a private, non-
profit with statewide representation and is one of the most successful 
organizations in the region tapping the federal workforce connections 
funding.
    This past year alone they've successfully implemented several 
creative programs matching healthcare training applicants with real 
jobs in the private sector.
    As we continue to research growth opportunities for employment, we 
now find ourselves with a focus on alternative energy, in particular 
solar energy.
    In October, the city of Henderson will host our first annual Global 
Solar Summit. We've invited the leading solar panel manufactures from 
Asia, Europe and America to convene in Henderson for a unique business 
development conference.
    We'll be matching the leaders of these companies with regional 
utilities and solar developers.
    Over 300 companies will be in attendance, in addition to our 
federal workforce training officials, to promote training and growth 
opportunities.
    We're working hard to identify the best industries for our region 
and have heavily utilized federal workforce training programs to 
support our efforts.
    We will continue to rely on these programs to help educate and 
train workers for these industries in the future.
    All of these economic development efforts are vital for us to 
achieve our goal of providing a strong and diverse local economy.
    And all of them depend in great part on our ability to draw on the 
workforce training programs available to educate the workers these 
industries require.
    So while we are still facing an uncertain economic future, one 
thing is certain for us, and that is education is vital to create jobs 
and get Henderson and Nevada back on track.
    We appreciate you taking the time to come to Southern Nevada to 
listen to us and learn about our challenges and our successes.
    We look forward to working together to create jobs, educate and 
train the workforce of today, and tomorrow, and to rebuild an economy 
that is bright, vibrant and full of promise for our people.
    Thank you.
                                 ______
                                 
    Chairman Kline. Mr. Aguero, you are recognized for five 
minutes.

STATEMENT OF JEREMY AGUERO, PRINCIPAL ANALYST, APPLIED ANALYSIS

    Mr. Aguero. Chairman Kline, Congressman McKeon, Congressman 
Heck, I appreciate the opportunity to testify before you here 
today.
    Your staff asked me to provide a brief synopsis of 
employment and workforce conditions in Southern Nevada. In 
addition to my remarks, I have also provided a series of 
exhibits entitled Southern Nevada Employment and Workforce 
Trends, and I hope you find this information useful for your 
purposes.
    It is appropriate that you're holding this hearing here 
today because this region, this State, and this community have 
been acutely impacted by the recession. After leading the 
nation in nearly every measure of economic prosperity, 
including population growth, job creation, personal income 
growth and investment for more than 20 years, Southern Nevada 
now ranks at or near the nation's highest in terms of 
unemployment, housing price declines, foreclosure and 
bankruptcies.
    The numbers are nothing short of staggering. The local 
unemployment rate now stands at 14 percent and has been above 
10 percent for 31 consecutive months. Although the unemployment 
rate is below peak levels, its decline is attributable to the 
exodus of would-be workers from the labor pool, as opposed to 
new job creation.
    Since the recession officially began in December of 2007, 
Southern Nevada has lost more than 140,000 jobs, 15 percent of 
its workforce. An average of 3,200 jobs have been lost each 
month for more than three and a half years. One in every 6.5 
workers has been displaced.
    Although unemployment has fallen from 15.7 percent to 14 
percent during the past 12 months, total employment has still 
declined by 3,100 positions.
    For those lucky enough to remain employed, hours and wages 
have been cut. The underemployment rate is currently estimated 
at 23 percent. Average hours worked among private sector 
workers have fallen by 11.7 percent; average weekly wages by 
10.7 percent.
    The Bureau of Economic Analysis ranked Nevada dead last in 
terms of income growth between the first quarter of 2010 and 
the first quarter of 2011, the last data available. And while 
the recession may have ended nationally, the bureau also noted 
that Nevada's economy continued to contract in 2010, shrinking 
by 0.2 percent.
    Even if jobs were being created in Nevada, many displaced 
workers would likely remain unemployable. This is due to a 
number of factors, including the disproportionate share of 
those now unemployed who previously worked in the construction 
sector. At the economy's peak, construction accounted for more 
than 12 percent of Southern Nevada's workforce, roughly 2.5 
times the national average.
    Since that point, more than 72,000 construction workers 
have lost their jobs, roughly two in every three. The 
transferability of these skill sets is limited in today's 
economy, a challenge also confronting scores of service 
industry and lower level administrative employees whose jobs 
have been eliminated.
    Not all of our challenges are the result of cyclical or 
structural changes in the economy. Some of our wounds are self-
inflicted. Nevada reports among the lowest levels of 
educational attainment for its adult population. Adding to this 
challenge, the State has neglected its K through 12 education 
system for more than a generation, a fact reflected by the 
lowest high school graduation rate in the United States, and 
frightening low reading, math and science test scores among 
elementary and secondary students.
    Notwithstanding the best efforts of some, our college and 
university system has never had the resources, nor the standing 
to effectively contribute to our State's economic development 
goals.
    I do not want to leave you with the impression that 
Southern Nevada is a sinking ship. Although unmoored and 
struggling to find a safe harbor, there are some notable 
pockets of prosperity. The tourism industry has reported strong 
improvements over the past 12 months, adding 8,000 positions. 
Moreover, core employment--defined as total employment less 
construction and government jobs--has been positive for most of 
the past 12 months and is up more than 13,000 positions since 
bottoming out in August of 2009.
    While some businesses continue to struggle, others are 
again profitable. Conditions are far from good, but they are 
markedly improved when compared to conditions 12 or 24 months 
ago. While our community is fatigued and fragile, it is also 
resilient and resourceful.
    I, for one, appreciate your continued efforts on our 
behalf. Thank you again for being here today and for allowing 
me to join you.
    Chairman Kline. Thank you, sir.
    [The statement of Mr. Aguero follows:]

       Prepared Statement of Jeremy A. Aguero, Principal Analyst,
                            Applied Analysis

    Chairman Kline, Congressman Heck, and members of the Committee on 
Education and the Workforce, I appreciate the opportunity to testify 
before you here today. Your staff has asked me to provide a brief 
synopsis on employment and workforce conditions in southern Nevada. In 
addition to my remarks, I have also provided a series of exhibits 
entitled, Southern Nevada Employment and Workforce Trends. I hope you 
find this information helpful.
    It is appropriate you are holding this hearing here today because 
this region, state, and community have been acutely impacted by the 
recession. After leading the nation in nearly every measure of economic 
prosperity, including population growth, job creation, personal income 
growth and new investment, for more than 20 years, southern Nevada now 
ranks at or near the nation's highest in terms of unemployment, housing 
price declines, foreclosure and bankruptcy.
    The numbers are nothing short of staggering. The local unemployment 
rate now stands at 14 percent and has been above 10 percent for 31 
consecutive months. Although the unemployment rate is below peak 
levels, its decline is attributable to the exodus of would-be workers 
from the labor pool as opposed to new job creation. Since the recession 
officially began in December 2007, southern Nevada has lost more than 
140,000 jobs, 15 percent its workforce. An average of 3,200 jobs have 
been lost each month for more than three and a half years; 1 in every 
6.5 workers has been displaced. Although unemployment has fallen from 
15.7 percent to 14.0 percent during the past 12 months, total 
employment has declined by 3,100 positions.
    For those lucky enough to remain employed, hours and wages have 
been cut. The underemployment rate is currently estimated at 23 
percent. Average hours worked among private sector workers have fallen 
by 11.7 percent; average weekly wages by 10.7 percent. The Bureau of 
Economic Analysis ranked Nevada dead last in terms of income growth 
between the first quarter of 2010 and first quarter of 2011 (the latest 
available data); and, while the recession may have ended nationally, 
the Bureau also noted that Nevada's economy continued to contract in 
2010, shrinking by 0.2 percent.
    Even if jobs were being created in Nevada, many displaced workers 
would likely remain unemployable. This is due to a number of factors, 
including the disproportionate share of those now unemployed who 
previously worked in the construction sector. At the economy's peak, 
construction accounted for more than 12 percent of southern Nevada's 
workforce--roughly 2.5 times the national average. Since that point, 
more than 72,000 construction workers have lost their jobs, roughly two 
in every three. The transferability of these skill sets is limited in 
today's economy, a challenge also confronting scores of service 
industry and lower-level administrative employees whose jobs have been 
eliminated.
    Not all of our challenges are the result of cyclical or structural 
changes in the economy. Some of our wounds are self inflicted. Nevada 
reports among the nation's lowest levels of education attainment for 
its adult population. Adding to this challenge, the state has neglected 
its K-12 education system for more than a generation, a fact reflected 
by the lowest high school graduation rate in the United States and 
frighteningly low reading, math and science test scores among 
elementary and secondary students. Notwithstanding the best efforts of 
some, our college and university system has never had the resources nor 
standing to effectively contribute to the state's economic development 
goals.
    I do not want to leave you with the impression southern Nevada is a 
sinking ship. Although unmoored and struggling to find a safe harbor, 
there are some notable pockets of prosperity. The tourism industry has 
reported strong improvements during the past 12 months, adding nearly 
8,000 positions. Moreover, core employment--defined as total employment 
less construction and government jobs--has been positive for most of 
the 12 months and is up more than 13,000 positions since bottoming out 
in August 2009.
    While some businesses continue to struggle, others are again 
profitable. Conditions are far from good, but they are markedly 
improved when compared to conditions 12 or 24 months ago. While our 
community is fatigued and fragile; it is also resilient and 
resourceful.
    I for one appreciate your continued efforts on our behalf. Thank 
you again for being here today and for allowing me to join you.
                                 ______
                                 
    Chairman Kline. Mr. Enns, you are recognized.

STATEMENT OF DARREN ENNS, SECRETARY TREASURER, SOUTHERN NEVADA 
                BUILDING AND CONSTRUCTION TRADES

    Mr. Enns. Thank you. Hello, my name is Darren Enns. I'm the 
secretary treasurer of the Southern Nevada Building and 
Construction Trades Council. I would like to start by thanking 
Ranking Member Miller for the invitation, and Chairman Kline 
and members of the committee for allowing me to testify today.
    I come before the committee on behalf of 20,000 highly 
trained craft workers in the Southern Nevada area who belong to 
one of 17 local unions that make up the Southern Nevada 
Building and Construction Trades Council.
    These locals, in partnership with their signatory 
contractors, run apprenticeship and training programs that 
provide the skills necessary for a good career in the 
construction industry. As the apprenticeship system has 
functioned for centuries, the apprentice works and earns a wage 
with good benefits while attending class all the while moving 
to journeyperson status. Furthermore, the national scope of all 
of our unions allows us to bring in travelers with standardized 
training and certifications, providing reliable and highly-
trained workers for our contractors, regardless of the need.
    Unfortunately, that demand for workers in our area isn't 
there anymore, even though Southern Nevada and the country as a 
whole has gaping needs for new energy and infrastructure.
    Because of the lack of construction jobs in Nevada, I have 
been on the lookout for a way to try to help make things better 
for the people I represent. For this reason I found myself 
attending workforce investment board workshops at the local 
level and listening to all of the ideas that people put forth 
in order to create jobs.
    As the organization that represents the premier training 
programs in the area, I wanted to share our model for high-
skilled training that seamlessly matches people with 
employment. I also hoped to gather new ideas to ensure we 
remained the best trainers in the country and to find 
opportunities to meet new industry demands, and thus create 
more jobs for my members. I applaud the local board for 
listening to my ideas and recognizing what the building trades 
bring to the training world. I hope that our model helped them 
to find ways to build more connections between training and 
employment.
    I believe, however, we should be trying to create jobs, not 
students. Unfortunately----
    Voice. What we need is jobs. We need jobs. I have been 28 
years in the construction industry----
    Chairman Kline. Ma'am, would you wait until he finishes 
speaking? Thank you very much.
    Mr. Enns.
    Voice. I want to find jobs for people. That's what I want. 
I want to hear how you are going to fund these trainings.
    Chairman Kline. Mr. Enns, would you suspend your----
    Voice. I want to hear from Joe Heck, what he intends to do 
about job training and jobs. You don't want to spend money on 
anything, so where are you going to get the money to do even 
this program? I support training. But I need a job. I'm going 
to lose my health insurance. I have a little piddly little IRA 
that I am going to sell so I can pay my rent, my mortgage for 
the next--for the end of the year.
    Chairman Kline. Mr. Enns.
    Mr. Enns. I believe we should be trying to create jobs, not 
students. Unfortunately----
    Voice. What we need is a job, you know, it is simply 
beautiful when you say, driving, trying to move, I have not had 
a job for six months. I have to pay my rent. I have to do what 
I have to do.
    Chairman Kline. We would like to hear from the witness in 
the hearing, if you could please step outside. Mr. Enns, you 
are recognized.
    Mr. Enns. Thank you. Unfortunately, there is nothing my 
workforce investment board, or any other, can do to spur 
meaningful job creation. Businesses are cautious----
    Voice. Can I ask you, are you going to remove everybody who 
is asking for jobs? Please, Mr. Heck, is that what you are 
doing in the Congress.
    Chairman Kline. If there are others who would like to 
disrupt the hearing, we would like to get through that as 
quickly as we can. No.
    Mr. Enns.
    Mr. Enns. Businesses are cautious and hoarding cash, afraid 
to create a job in these uncertain times. I can't blame them, 
when they can't be sure if the government is going to slash 
needed programs that generate real economic activity and cut 
off their unemployment benefits, or if real help will come from 
Washington, D.C. to put our economy back on track, like 
rebuilding our infrastructure, investing in new energy 
projects, or helping people like my members with mortgage 
relief.
    During this recession our members have continued to build 
their skills, even with the lack of work. The journeymen craft 
workers have gone back to the classrooms for journeyman upgrade 
classes so that they can better serve the contractors who 
they--when they finally do go back to work.
    In the State of Nevada we supported OSHA 10 and 30-hour 
training for all construction workers and all of our many 
craftspeople have returned to the classroom for that safety 
training that is now a State law. In my experience as a member 
of the Plasterers and Cement Masons Local 797, I know that we 
as union members are very well trained, and yet our industry is 
still plagued with high unemployment. So when discussions start 
to go the direction of training, it seems to me that we're not 
going to get anyone to work this way.
    Despite the best efforts of the local workforce investment 
board, I personally never saw anyone go to work as a result of 
their efforts. We need to be creating jobs, so my local 
workforce investment board can begin the hard work that the 
Southern Nevada Building Trades have been doing for decades: 
Providing meaningful training, leading to good careers, 
directly connected to employment and industry needs.
    It is a good feeling when you are able to send someone to a 
job that they may not have gotten without your efforts. I'd 
encourage Congress to pursue that feeling. Wouldn't you feel 
great if you returned to your district to see your constituents 
repairing a structurally deficient bridge or building a new, 
clean and safe school.
    I would like to close with personal account of a 
conversation I had with my grandfather, who was my instructor 
in the plastering trade many years ago. We had a job on the 
west end of Las Vegas that sat on a golf course. We stopped for 
a break at lunch time, high on a building that had a commanding 
view of the Las Vegas Valley. After eating and enjoying the 
view, I commented to my grandfather about how much the city had 
grown in the last several years of my short recollection. He 
agreed and he said--and I said ``It has to come to a stop 
sometime.'' He laughed and said, ``We have been saying that for 
30 years.''
    Well, it's been another 20 years since then and I'm 
saddened to report that we have found the day when it stopped. 
Construction craftspeople are now suffering the worse 
unemployment in Nevada history. We need your help to create 
jobs. Building trades have been taking care of the training, in 
our industry anyway, for decades, and we will continue to do 
so. Thank you.
    Chairman Kline. Thank you, sir.
    [The statement of Mr. Enns follows:]

        Prepared Statement of Darren Enns, Secretary/Treasurer,
        Southern Nevada Building and Construction Trades Council

    Hello my name is Darren Enns and I am the Secretary/Treasurer of 
the Southern Nevada Building and Construction Trades Council. I would 
like to start by thanking Ranking Member Miller for the invitation, and 
Chairman Kline and the members of the committee for allowing me to 
testify today. I come before the committee on behalf of 20,000 highly 
trained craft workers in the Southern Nevada area who belong to one of 
17 local unions that make up the Southern Nevada BCTC. These locals, in 
partnership with their signatory contractors, run apprenticeship and 
training programs that provide the skills necessary for a good career 
in the construction industry. As the apprenticeship system has 
functioned for centuries, the apprentice works and earns a wage with 
good benefits while attending class all the while moving to 
journeyperson status. Furthermore, the national scope of all of our 
unions, allows us to bring in travellers with standardized training and 
certifications; providing reliable and highly-trained workers for our 
contractors regardless of the need. Unfortunately, that demand for 
workers in our area isn't there anymore. Even though Southern Nevada 
and the country as a whole has gaping needs for new energy, and 
infrastructure.
    Because of the lack of construction jobs in Nevada I have been on 
the lookout for a way to try to help make things better for the people 
I represent. For this reason I found myself attending workforce 
investment board workshops at the local level and listening to all of 
the ideas that people put forth in order to create jobs. As the 
organization that represents the premier training programs in the area, 
I wanted to share our model for high-skilled training that seamlessly 
matches people with employment. I also hoped to gather new ideas to 
ensure we remained the best trainers, and to find and all opportunities 
to meet new industry demands and thus create more jobs for my members. 
I applaud the local board for listening to my ideas and recognizing 
what the Building Trades bring to the training world. I hope that our 
model helped them find ways to build more connections between training 
and employment.
    I believe we should be trying to create jobs, not students. 
Unfortunately, there is nothing my workforce investment board, or any 
other, can do to spur meaningful job creation. Businesses are cautious 
and hoarding cash, afraid to create a job in these uncertain times. I 
don't blame them, when they can't be sure if the government is going to 
slash needed programs that generate real economic activity and cut off 
their unemployment benefits, or if real help will come from Washington, 
DC to put our economy back on track--like rebuilding our 
infrastructure, investing in new energy projects, or helping people 
like my members with mortgage relief.
    During this recession, our members have continued to build their 
skills even with the lack of work. The Journeymen craft workers have 
gone back to the classrooms for journeyman upgrade classes so that they 
can better serve the contractors when they finally do go back to work. 
In the state of Nevada we supported OSHA 10 hour and 30 hour training 
for all construction workers and all of our many craftspeople have 
returned to the classroom for that safety training that is now a state 
law. In my experience as a member of the Plasterers and Cement Masons 
Union local 797 I know that we as union members are Very well trained, 
and yet our industry is still plagued with high unemployment So when 
discussions start to go the direction of more training, it seems to me 
that we're not going to get anyone to work this way. Despite the best 
efforts of the local WIB, I personally never saw anyone go to work as a 
result of their efforts. We need to be creating jobs, so my local WIB 
can begin the hard work that the Southern Nevada Building Trades have 
been doing for decades--providing meaningful training, leading to good 
careers, directly connected to employment and industry needs.
    It's a good feeling when you are able to send someone to a job that 
they may not have gotten without your efforts. I'd encourage Congress 
to pursue that feeling. Wouldn't you feel great if you returned to your 
district to see your constituents repairing a structurally deficient 
bridge or building a new, clean and safe school?
    I would like to close with a personal account of a conversation 
that I had with my grandfather who was my instructor in the Plastering 
trade many years ago. We had a job on the west end of Las Vegas that 
sat on a golf course. We stopped for a break at lunch time high up on 
the building that had a commanding view of the Las Vegas Valley. After 
eating and enjoying the view I commented to my grandfather about how 
much the city had grown in the last several years of my short 
recollection. He agreed and then I said ``It has to come to a stop some 
time'' He laughed and said ``we've been saying that for 30 years...'' 
Well, it's been another 30 years since that day and I'm saddened to 
report that we have found the day when it has stopped. Construction 
craftspeople are now suffering the worst unemployment in Nevada 
history. We need your help to create jobs. The Building Trades have 
been taking care of the training, in our industry anyway, for decades 
and will continue to do so.
                                 ______
                                 
    Chairman Kline. Mr. Walker, you are recognized.

STATEMENT OF LEROY WALKER, VICE PRESIDENT, HUMAN RESOURCES, ST. 
            ROSE DOMINICAN HOSPITALS, NEVADA MARKET

    Mr. Walker. Thank you for this opportunity. There are many 
who would say that there's no longer a nursing shortage. Rest 
assured that once we turn the corner related to our economic 
situation, the nursing shortage will be even deeper than we 
could imagine. Please recognize many of our staff are waiting 
for an economic recovery prior to announcing their retirement.
    I say this as I see our staff come to human resources on a 
weekly basis, checking on their retirement benefits. Therefore, 
programs must be in place now to address what could be a mass 
exodus of our caregivers in the new future.
    In an environment in which costs are spiraling out of 
control, healthcare is challenged to reduce costs. One area we 
find in which costs can be reduced is in our on-boarding and 
orientation of candidates for various positions. Our 
environment is one in which more and more legislation requires 
more and more training, much of which we find ourselves 
responsible for in order to provide safe patient care. These 
types of programs, while necessary, certainly do not reduce the 
costs of healthcare.
    Within my organization we've identified issues that have an 
impact on on-boarding and implementing various programs to 
address skill gaps.
    Every new hire is required to have a thorough background 
check completed pre-hire. This check is conducted against a 
national database. It is unfortunate when we find a new 
graduate candidate that cannot pass the background check, due 
to issues that may have occurred prior to even applying to 
nursing school. This type scrutiny, while necessary, also 
results in delays in the hiring process.
    We have found that nursing schools have typically provided 
clinical assignments, rotating students through the community. 
While these clinical assignments are necessary, they do not 
serve each organization well since equipment, documentation, 
and quality may differ throughout the community. As a result, 
St. Rose has developed a relationship with Roseman University--
that's a for-profit entity--to provide an on-site nursing 
program tailored for the future needs of St. Rose. These 
students learn one way to do things, and that's the St. Rose 
way, and they're less likely to leave the organization, since 
they have received their training through the organization.
    Due to the rotation of students throughout the community 
for their clinical experiences, we found the need to implement 
a different program, called the Versant Program. It is designed 
to provide new graduates with the opportunity to have up to 18 
weeks of additional training and mentorship within our 
organization as they transition from life as a student to life 
as a professional. That's an addition of 18 weeks of added 
costs to train a new graduate in areas that are important to 
the organization.
    We provide a multitude of certifications on-site for staff 
to ensure that they maintain the qualifications for their 
positions. Additionally, we provide education assistance 
programs to our staff.
    We recruit nationally for trained clinical staff. However, 
we are challenged by the current economic situation in which 
selling of homes in other parts of the country makes it 
difficult to recruit in the once attractive Las Vegas market, 
even with our very attractive housing buyers market.
    We continue to build relationships with various students 
throughout the community to ensure that their curriculum and 
students can better meet the needs of the employer upon 
graduation.
    While we are regularly attempting to address issues related 
to the skill gaps with our nurses, we all must be cognizant of 
the fact that shortages exist in virtually every allied health 
profession.
    Nevada is ranked 32nd in the nation in respiratory 
therapists per capita. We currently average 28.1 respiratory 
therapists per 100,000.
    Nationally, the projected growth of imaging techs is 17 
percent by 2018. Nationally we currently average 66.9 
radiologic technicians per 100,000.
    The American Registry of Radiologic Technologists board of 
trustees has formally approved the associate degree as the 
minimum educational requirement for the certification 
examinations beginning January 1st of 2015. This is something 
we need to address now. That will be the minimum certification.
    Training needs within the--I'm sorry, coders will be 
required to learn and adapt to new requirements surrounding 
ICDT-10 in order for hospitals to be appropriately reimbursed.
    Training needs within healthcare are complex and have 
resulted in a need to have organizations to ensure that staff 
is trained properly. Additionally, the partnering with various 
educational systems to ensure that their curriculum is in 
alignment with our needs has become more necessary than ever. 
As we each find the need for more and more healthcare, we must 
find a better, more efficient way to ensure that staff is 
appropriately trained and prepared to provide the care we need.
    In closing, the support of government and the business 
community is essential to insure that Nevada has the healthcare 
professionals we need in the future. It is through these 
initiatives that we will train the leaders of the future and 
provide opportunities for Nevada to retain our investment in 
those who will care for current and future generations. Thank 
you.
    Chairman Kline. Thank you, Mr. Walker.
    [The statement of Mr. Walker follows:]

      Prepared Statement of LeRoy Walker, Regional Vice President,
             Human Resources, St. Rose Dominican Hospitals

    While there are many who will say there is no longer a nursing 
shortage, rest assured that once we turn the corner related to our 
current economic situation the nursing shortage will be even deeper 
than we could imagine. Please recognize many of our staff are waiting 
for an economic recovery prior to announcing their retirement. I say 
that as I see our staff come to Human Resources weekly, checking on 
their retirement benefits. Therefore, programs must be in place now to 
address what could be a mass exodus of our caregivers in the future.
    In an environment in which costs are spiraling out of control, 
healthcare is challenged to reduce costs. One area we find in which 
costs can be reduced is in our on- boarding and orientation of 
candidates for various positions. Our environment is one in which more 
and more legislation requires more and more training, much of which we 
find ourselves responsible for in order to provide safe patient care. 
These type programs, while necessary, certainly do not reduce the costs 
of healthcare.
    Within my organization we have identified issues that have an 
impact on on-boarding and implemented various programs to address skill 
gaps.
    <bullet> Every new hire is required to have a thorough background 
check completed pre-hire. This check is conducted against a national 
data bank. It is unfortunate when we find a new graduate candidate that 
cannot pass the background check due to issues that may have occurred 
prior to even applying to nursing school. This type scrutiny, while 
necessary, also results in delays in the hiring process.
    <bullet> We have found that Nursing schools have typically provided 
clinical assignments rotating students through the community. While 
these clinical assignments are necessary, they do not serve each 
organization well since equipment, documentation, and quality may 
differ throughout the community. As a result SRDH has developed a 
relationship with Roseman University (a for-profit entity) to provide 
an on-site nursing program tailored to the future needs of SRDH. These 
students learn one way to do things, the SRDH way, and are less likely 
to leave the organization since they have received their training with 
us.
    <bullet> Due to the rotation of students throughout the community 
for their clinical experiences, we have found the need to implement the 
Versant Program which is designed to provide new graduates with the 
opportunity to have up to 18 weeks of additional training and 
mentorship within our organization as they transition from life as a 
student to life as a professional. That is 18 weeks of added costs to 
train a new graduate in areas important to the organization.
    <bullet> We provide a multitude of certifications on site for staff 
to ensure they maintain the qualifications for their positions. 
Additionally, we provide education assistance programs to our staff.
    <bullet> We recruit nationally for trained clinical staff. However, 
we are challenged by the current economic situation in which selling of 
homes in other parts of the country, makes it difficult to move to the 
once attractive Las Vegas market, even with our attractive housing 
buyers market.
    <bullet> We continue to build relationships with the various 
schools throughout our community to ensure that their curriculum and 
students can better meet the needs of the employer upon graduation.
    While we are regularly attempting to address issues related to the 
skill gap with our nurses, we all must be cognizant of the fact that 
shortages exist in virtually every other allied health profession.
    <bullet> Nevada is ranked 32nd in the nation in respiratory 
therapists per capita.
    <bullet> We currently average 28.1 respiratory therapists per 
100,000
    <bullet> The population over 65 is projected to grow by 90% by 2020
    <bullet> Nationally the projected growth for imaging techs is 17% 
by 2018
    <bullet> Nationally we currently average 66.9 Radiologic 
technicians per 100,000
    <bullet> BLS predicts that 76,000 additional imaging and radiation 
technologists by 2018
    <bullet> American Registry of Radiologic Technologists (ARRT) Board 
of Trustees has formally approved the associate degree as the MINIMUM 
educational requirement for its certification examinations beginning 
Jan. 1, 2015.
    <bullet> Coders will be required to learn and adapt to new 
requirements surrounding ICDT-10 in order for hospitals to be 
appropriately reimbursed.
    Training needs within healthcare are complex and have resulted in 
the need for organizations to ensure that staff is trained 
appropriately. Additionally, the partnering with various educational 
systems to ensure that their curriculum is in alignment with our needs 
has become more necessary than ever. As we each find the need for more 
and more healthcare, we must find a better more efficient way to ensure 
that staff is appropriately trained and prepared to provide the care we 
need.
    The support of government and the business community is essential 
to insure that Nevada has the healthcare professionals we need in the 
future. It is through these initiatives that we will train the leaders 
of the future and provide opportunities for Nevada to retain our 
investment in those who will care for current and future generations.
                                 ______
                                 
    Chairman Kline. I want to thank all the witnesses for your 
testimony and for your patience.
    We are going to now start a series of moving back and forth 
among the members of the committee to ask questions and explore 
some of the issues that you have raised. We are going to try to 
stick to our own five minute rule. Rosemary will remind me, I'm 
sure.
    Let me start by saying that we have heard some discussion 
here about we need jobs, and that's the job. We need jobs. We 
need the economy growing and we need to match up the skills 
with the jobs that are available.
    We are struggling with a system that is not working 
efficiently or effectively. Sometimes it hasn't been measured. 
When I was first elected I went to visit a one-stop shop in my 
home county, the largest county in my district, and it was a 
very nice tour, very nice people, representatives of the 
community college, members of the board.
    We walked through the facility and I saw places where there 
were computer stations and people sitting at the computer 
stations working on resumes, and I asked the question, I said, 
``Well, how many people come in here?'' And they gave me a 
number, a fairly substantial number of people looking for work, 
and this is when the economy was in pretty good shape, back in 
2003. And I said, ``Well, how many of those people get jobs?'' 
Well, they didn't know.
    I said, ``Well, then, how you know that this is working?'' 
And they said, ``Well, we have 100 people a month or something 
come through and get help with their resumes.'' And I said, 
``That's nice, but how many of those get a job?'' And they 
didn't know.
    We are doing a very, very poor job, I think, around the 
country of really measuring whether or not the efforts that 
we're putting in are doing what they are supposed to do.
    So we have a number of issues to explore here today. We've 
had some comments from you about what is working and what is 
not working and clearly, again, one of the reasons that we are 
here is that the Southern Nevada and Las Vegas area is 
struggling with pretty high unemployment, and certainly we know 
the building trade has had a big, big hit here, as it has many 
places in the country.
    Let me start by going to the mayor. You said that you and 
the council had picked out some industry clusters to look at 
ways to sort of enhance the economy and open up jobs here in 
Henderson and you were focusing your efforts on growing 
industries in two key areas: education and health care. And you 
mentioned some of the work in healthcare, and not so much in 
education, but I've got two questions here: How did you pick 
those two areas, and how is that working out in both areas.
    Mr. Hafen. Well, first I would like to tell you that we 
have a great economic development director, and through some of 
his analysis and assessments, he came up with these two 
industries as being lacking in the city--well, in Southern 
Nevada. So that's the way that those two industries, education 
and healthcare, were focused on in the City of Henderson.
    Chairman Kline. There wasn't enough industry 
representation, or there was an unmet demand.
    Mr. Hafen. I think a little bit of both. Of course 
Congressman Heck, Dr. Heck can tell you that healthcare in this 
Southern Nevada area, and I believe in the country, is a major 
up-coming employment center.
    Chairman Kline. What are your efforts in reaching out to 
develop the education sector? What are you doing about that.
    Mr. Hafen. The thing that I think we've done very well with 
that is we have been out actively in the community and outside 
of our own borders recruiting. As I said in my testimony, we 
have 13 private colleges in the City of Henderson that are up 
and running and are successful, and of course we have a great 
number of students attending those colleges and universities.
    Chairman Kline. Are these in the private sector, for-profit 
or not-for-profit or a combination.
    Mr. Hafen. A combination.
    Chairman Kline. A combination, okay. Well, that's one of 
the reasons we like to come out here and hear about the 
innovation that's happening in the locality, that we are not 
getting some of those ideas so much back in Washington.
    I see I've got more questions. We are going to go through a 
couple of rounds here, but rather than start another question 
when I'm clearly going to over-run my time, I will in turn 
yield five minutes to Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chair. The little disruptions we 
had, people are really frustrated throughout the country. 
Actually, that was a very mild disruption, compared to some of 
the town hall meetings I've seen.
    People are frustrated. They want jobs. I don't know what 
jobs they want; I don't know what their training was, how do 
we--you come from different fields. You really focused in on 
nursing, and I think what you alluded to is we think we have 
solved the nursing problem because the economy has slowed 
everything down and we think we have now enough nurses, knowing 
that we don't. And so that's a fairly important sector.
    Everybody--I shouldn't say everybody, but probably 
everybody in the field knows you need nurses and I know that 
there are schools providing that training. How do they find out 
what other things, what are the, specifically, what do you 
think the factors are that are causing people that create jobs 
from creating them? What's holding people back?
    Who creates jobs? Entrepreneurs? Some industries create 
jobs, but they come after the economy is already booming. 
Somebody has to get the economy moving. What do you see as the 
impediment to the creation of jobs? Anybody?
    Mr. Aguero. Mr. Chairman, I'll move up to the mic and 
attempt to answer the question. I think it is a very difficult 
one. Is the question that you are asking nationwide or here in 
Southern Nevada?
    Either one. Well, let me tell you, I think I know a little 
bit more about Southern Nevada than I do the nation as a whole. 
Let me tell you that I don't think it is one thing. I think 
it's any number of things.
    The first question you asked is where are jobs created. 
Here in Southern Nevada jobs have largely been created, more so 
over time, by very large companies: hotels, casinos, those 
types of things were the impetus for most of the job creation.
    Over the past decade, however, about 90 percent of the job 
growth we did have, before the economy turned downward, was 
hotel-casino jobs. These are other industries, business and 
professional services, education and health services, 
manufacturing, distribution-type industries that were largely 
leading the type of industry that we had.
    The second question sort of bridged, okay, how do we--what 
are the impediments? Why is that not happening today? Relative 
to why it is not happening today, I think, number one, is just 
the pure uncertainty of the economy.
    This economy, much like the balance of the nation, was sort 
of seeing some leveling off and even some movement upward until 
the slew of very difficult circumstances that hit the nation: 
Rising gas prices in the early spring; tornadoes; a tsunami 
with nuclear implications; debt crises both here at home and 
overseas.
    All of those types of things created some degree of 
significance, a significant degree of uncertainty within the 
economy. Right here at home we have not done a very complete 
job, if you will, of sort of answering the question: How we are 
going to fund our State and local governments over a longer 
term. Again, leading to uncertainty.
    I would also add to that the other impediments are things 
like education. I tend to believe that education is what you 
have after you've forgotten everything they taught you in 
school, borrowing that from someone else, surely.
    But we have failed to educate our children and now we're 
shocked and stunned that they are not employable. And come on, 
certainly that's not all of them. But the fact that we as a 
nation have focused more on fiscal capital and less on human 
capital, while nations outside of our borders have gained 
ground on us from education, means that our students have a 
competitive disadvantage within the workforce.
    I think that the combination of those two things: the 
uncertainty and the fact that we are simply not prepared for 
the jobs of today, much less the jobs of tomorrow, are likely 
causing the impediments that you asked about.
    Mr. McKeon. Yes.
    Mr. Walker. And I would like to tie into some of that. I 
agree with the comment, but one point I would like to drive 
home is as students graduate from some of these college 
programs, we are reeducating because they are not getting all 
the things that we need as an employer for them to do for us as 
that employer.
    To say that I have to educate somebody for an additional 18 
weeks because this is how we do things within our organization, 
in my mind says why aren't we talking more to the colleges to 
ensure that they know what we are looking for as an employer, 
so that they are ensuring that those students get those things, 
so that we're not paying those additional dollars.
    Chairman Kline. The gentleman's time has expired. Dr. Heck.
    Mr. Heck. Thank you, Mr. Chairman. My thanks to the panel 
for taking the time to be here today and I share the 
frustrations of those who voiced their concerns. And on a 
personal level, I have a 24-year-old daughter who is a recent 
graduate from UNLV with a degree in hotel and restaurant 
management, our premier school at UNLV, just moved away from 
Las Vegas because she couldn't find a job here. Just last week 
she has moved away from Las Vegas to find a job elsewhere.
    I know we need jobs here in Nevada. It has affected my 
family. Mayor, I'm blessed that I've lived in Henderson my 
entire time that I have been in Nevada. We have had visionary 
leadership, both yourself and your predecessors, in a very 
deliberative and stepwise progression of growing Henderson into 
the city that is one of America's most livable cities.
    We mentioned the 13 universities and schools and I've 
visited most of them since being elected and I'm very impressed 
by what they offer. Not only do they bring talented folks to 
our city as employees, but they are also educating the future 
generations and we certainly have grown to being the medical 
epicenter of Southern Nevada, with Touro, the State college, 
and the nursing program.
    How do you see that as tying into the new development of 
the medical village, hopefully coming on-line in the not too 
distant future, growing those type of jobs? How big of a role 
do those universities and entities within Henderson play in 
helping to create the other jobs, the construction jobs, 
building that village and the staffing of the village, once it 
is up and running?
    Mr. Hafen. They will play a very important role. As Mr. 
Walker commented, what we need to do is somehow put together 
our colleges and our universities with developments such as 
Union Village and make sure that the educators are teaching 
what the workers need to know. And there's going to be some 
very high technology and cutting-edge operations at that Union 
Village Center.
    So our education and universities need to be able to give 
these types of developments those students that can be up and 
running from the very start.
    Mr. Heck. Is that interchange taking place today? What can 
be done to foster that communication between the employer and 
the developer and those that are actually doing the training of 
our future workforce?
    Mr. Walker. That's a conversation between the employers and 
those educational institutions because as they sit down and 
develop curricula I, for one, have insisted, especially as it 
relates to nursing curricula, that they sit down and talk to 
our C and E. They know what our organization needs. So they 
talk about how the curriculum can be tailored such that 
individuals can step out of those programs and immediately be 
able to start doing things within our organization.
    While you are speaking of nursing, it is far more than 
nurses. It's the radiology imaging, respiratory therapy, it is 
all those things.
    Mr. Heck. But those conversations are on-going, or they 
have started.
    Mr. Walker. Those conversations have started.
    Mr. Heck. Started, need to foster and grow.
    Mr. Walker. Yes.
    Mr. Heck. Mr. Enns.
    Mr. Enns. I don't mean to butt in, but I'm afraid I might 
not get a chance if I don't. What I wanted to notice here was 
that we have been looking at one side of the picture, in my 
opinion, and I have been involved in these talks for over, 
probably about two years now, obviously, because of our 
economy. And we keep hearing the same words over and over 
again: employer; developer; educational institutions.
    But the one thing that we are leaving out is the people. We 
have, what we are working on here, what we are talking about 
here is a long-term solution. While I don't discount that we 
should have a long-term solution for the education and the 
promotion of jobs in the State of Nevada, what we, one thing we 
aren't focusing on is the people who are out of work in the 
State of Nevada. And you mentioned, Mr. Heck, that the highest 
unemployed percentage of unemployed people in the State of 
Nevada is construction workers.
    I haven't heard anyone say that so far today, except for 
myself. And so if we want to change the unemployment statistics 
in the State of Nevada, what's the quickest way to change it? 
Find a way to put the people to work that are out of work. It's 
not just construction workers, but that's who I represent.
    So how do we do that in the quickest way possible? I think 
we should be talking about that, also, not just the up-coming 
fields, and the education that's required to get people--I'm 
not sure, I do know some construction workers who have gone 
into the nursing field, I'll tell you that. But they are few 
and far between. And I don't know how we are going to get 40 or 
50,000 construction workers into the nursing field.
    So we've got to look at ways, in my opinion, that get those 
that are out of work to work. If it is not in construction, it 
may be in something else. I would support the idea of 
alternative energy and renewable energy stuff in the State of 
Nevada. This is a perfect place for that, and I think that, you 
know, we talk about it a lot. We are making some end roads 
toward building renewable energy in the State of Nevada.
    But that's the quickest way, in my opinion, to get those 
numbers changed, is to put those people back to work and we 
have a perfect way to do it and it does require education to do 
that.
    Chairman Kline. Thank you. I am mindful that we have 
another panel, and I want to make sure I leave time for them. 
But I think we have enough time to go through another quick 
round of questions here while we have this panel.
    So I'm the Chairman. I get to make that decision. That's 
what we are doing to do. So I'll recognize myself and try very 
hard to strictly adhere to our own five-minute clock because we 
do have the other panel.
    I want to continue to explore the discussion that Mayor 
Hafen and Mr. Walker, Mr. Heck were having about connecting the 
employer with the educational institution. We've had a number 
of hearings, field hearings, as I mentioned earlier, around the 
country. One of the things that we have heard is in the 
educational institution itself, that there be members of the 
business community who are on advisory boards, for example, 
helping to develop the curriculum.
    Mr. Walker, you said you need 18 weeks more of training. It 
seems to me that's a problem that we ought to be able to solve. 
Workforce investment boards, there is a requirement under the 
Act that there be employers, business representatives on that.
    It seems to me we need to start to make that connection and 
I would like to hear from you, Mr. Mayor, or from anyone who 
has had direct experience with that to see where there are 
examples where that connection is being made to not only help 
identify the jobs that are available, and then what we are 
doing about connecting the people who are training for those 
jobs with where the job openings are.
    Mr. Hafen. Maybe I can offer this: We, myself and the other 
council members, go out on a weekly basis and we visit 
businesses in the City of Henderson. One of the trends that we 
saw in some of those visits was that, especially in some of our 
industries, the business owners were saying hey, we just don't 
have the educated workforce that can maintain some of the 
equipment that we have.
    I think where we are lacking, maybe as a city and city 
council, is we didn't go that one step further and through this 
testimony today, I intend to include educators and the 
universities and some of the private colleges in the City of 
Henderson in these weekly visits so that we can coordinate 
between education and the employer to exactly what their needs 
are.
    Chairman Kline. Well, let me interrupt for just a second. 
It seems to me that's the way it was supposed to be set up. 
That's why we have hearings like this is to find out what's 
working and what's not working.
    Back to my original comments about going to a one-stop, 
walking through and asking how many people actually got jobs 
and being given the blank stares, they really didn't know, they 
weren't tracking that. So they didn't know if it was working.
    But that system is designed to help connect the training 
preparation of workers with where they are needed. That's why 
you have the make-up that you have on the board. But that's 
currently not working because we have Mr. Walker's testimony 
that says they are not prepared, the workers are not prepared, 
nurses and radiologists and so forth and they have to get 
additional training.
    There's a disconnect there and I hear the same thing from 
the mayor here, says that out and about, as all mayors should 
be, and that's a very good thing and there's a disconnect. So 
that's part of what we are exploring here.
    I know Mr. Enns has testified that in the apprenticeship 
and journeyman and union training system it is designed for 
connect, but there don't happen to be jobs available there 
right now. So there is a connect between training and what they 
need to do, there just aren't the jobs there. So there's going 
to have to be some crossing over, and I know not every 
construction worker is going to go into nursing. I certainly 
hope they don't. One of these days I'm going to have a leak in 
my roof and I want to make sure there's somebody there to do 
it.
    But we have a disconnect and I'm trying to explore if 
there's anything here that you are seeing where we can make 
that connection. Mr. Enns?
    Mr. Enns. I'll state it again, that you can have all the 
education you want and put people through four and six and 
eight years worth of college to prepare themselves for the jobs 
that will be available in the future, and even for the jobs 
that may be available today, although they may be few and far 
between.
    But you are still going to have tens of hundreds of 
thousands of people across the country that are sitting at home 
out of work.
    Chairman Kline. No question, until the economy gets going, 
we are going to have a high jobless rate. That's an important 
issue which we need to address as a Congress and a nation.
    But the specific issue before us now is how do we connect 
the available employees with the jobs that are there, and there 
seems to be a continuing disconnect. Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. Whose responsibility 
is it to create jobs?
    Mr. Hafen. I would like to go back to that. You asked that 
question before, too, and it is actually all of ours: It is the 
private sector; it is the public sector; it is the business 
people.
    Quite frankly, I think one of the problems that we have, 
especially in this economy, and I'm not going to be too 
Pollyanna-ish here, but people need to have hope and faith that 
things are going to get better. And what I try to do when I'm 
out and about is let people know that Henderson is open for 
business, and I think if you just get that attitude changed 
within our country, that things will start loosening up and get 
better.
    Mr. McKeon. Whose responsibility is it to create jobs.
    Mr. Aguero. I would echo what the mayor said. I think it is 
all of our responsibility to create jobs, particularly those 
that have them today. The small business owner; the large 
business owner, to try and keep people employed.
    I think at the heart and soul of this community, respecting 
the fact that some places like construction have been 
disproportionately impacted by the downturn because they simply 
can't hold on. I can't tell you how many business folks I have 
talked to, large and small, that have done everything that they 
can to bring jobs back, as well as through most of the 
downturn, try and keep as many people working as long as 
possible for as long as possible.
    So going directly to your question, I think what is 
reflected in this community and continues to be reflected 
today, is that it is everyone's responsibility, large and 
small, across all industries: public sector; private sector, to 
help folks get back to work.
    Mr. McKeon. You know, I was visiting an aerospace company 
in my district that builds wings and they were expanding to a 
new building. This was years ago. And they said they had 
problems keeping people that could run the computers and do the 
things that they wanted them to do and they tried to advance 
from within and they said when they would get somebody trained, 
a larger company, Lockheed, would hire them away.
    So they had a real quandary. And we talked a little bit and 
I got them together with the city, with the community college. 
They found out that some of the taxes they were paying were not 
going to the city that they should have. We were able to get 
that fixed and they were able to then have some seed money. And 
I went to the community college and they agreed they would 
provide a professor and now they have--this was years ago, but 
they got it started very shortly after that.
    The seed money from the city provided the computers and the 
community college provided a professor and the business 
provided the classroom location. Now they have two full-time 
professors in there and they don't care, they said send the 
Lockheed employees, and the Northrop employees because there's 
enough for all of them to do. So communication was very, very 
important.
    The question you asked about how do we get people working 
right now. I come from a business background. I did not look at 
the government as it being their responsibility to create jobs. 
I didn't look at it as my responsibility to create a job.
    But if I wanted to grow my business, it became natural. As 
I grew, it created more jobs. And I've talked to a lot of 
business people now, people that are in the field that would 
normally be creating jobs. They say uncertainty.
    I was in the retail business. Why would I want to open a 
store in this kind of environment? I just want to hunker down 
and try to exist, try to get through it. Regulations, 
government regulations, when my dad was a young man and first 
went into business, it was very simple. Now a days you have to 
get all kinds of licenses, permits, and pass all kinds of 
requirements to start a business. It's very difficult. And then 
to keep it going, and that also creates uncertainty.
    Then financing, when we wanted to open a new store we could 
go to the bank and borrow money. Ever since the collapse a few 
years ago, lenders are getting hit by regulators. So a loan 
that they would make a few years ago that was a very good loan 
is now a bad loan, and they get criticized for it.
    So it always, it used to be the saying that if you need 
money, you can't get it. If you don't need it, you can get it. 
That is in spades now, and you have to be able to prove without 
uncertainty that you can repay that loan. There is no risk-
taking.
    So it is very difficult, so an entrepreneur that will 
create jobs, somebody that wants to start hiring right now, put 
people to work right now, is reluctant to do so. And we are in 
a real catch 22. We need to loosen up some of those 
regulations, loosen up some of that financing, and that's what 
got us into the pickle we are in. So it is like who is going to 
take the first step. Yield back.
    Chairman Kline. The gentleman's time has expired. Dr. Heck.
    Mr. Heck. Thank you, Mr. Chair. Mr. Aguero, I certainly 
appreciate and have long appreciated your passion for education 
here in Southern Nevada. I don't think you ever give a 
presentation without underscoring the importance of our 
educational experience, both K through 12, and secondary, and 
the challenges we've faced for decades, especially looking at 
the newer ideas of trying to concentrate on science, 
technology, and math.
    The good part of this committee is while one part is 
workforce, the other part is education. It's the Education and 
the Workforce Committee. So I get to try to have an impact on 
both sides.
    One of the other issues we are working on currently is the 
reauthorization of the Elementary and Secondary Education Act 
which will bring some other information back to Washington. But 
I'm going to ask you a question, and then I want to transition 
to Mr. Enns for the follow-up.
    Certainly we've had, we had very robust growth in the 
construction industry, just because of who we are and how fast 
we were growing. The joke was we were the only place where 
construction workers were building homes for other construction 
workers.
    In your years of being here, in your experience of really 
knowing the economic analysis of Southern Nevada, do you 
foresee us ever returning to those levels of construction or 
growth where those over 100,000 construction jobs that are gone 
would come back.
    Mr. Aguero. No, sir, I do not. And principally I think the 
statistics bear it out, to some degree. At the peak of the 
market some 112,000 people were employed in the construction 
trade here in Southern Nevada alone. It represented 12, 12 and 
a half percent of our workforce. The national average is 
somewhere in the five and a half range, even when the economy 
was performing comparable well.
    Today, after having lost two out of every three 
construction jobs, we are now only back to about four and a 
half percent of our workforce in construction, something 
consistent with the national average.
    Now, that isn't to say that we don't have some 
infrastructure that needs to be put to work, and some folks can 
be put to work, that some of the buildings that we have in 
Southern Nevada don't, or won't require some degree of 
refurbishment or continued effort, we have. I think we can 
sustain those levels.
    That said, the ability to transition those employees to 
that level of 72,000 displaced construction workers back into 
the construction industry simply defies logic, given what we 
know in terms of the needed development.
    Mr. Heck. So Mr. Enns, I appreciate the fact obviously that 
our construction industry is the most decimated part of our 
economic foundation here in Southern Nevada. But with the 
projection that, unfortunately, all those construction workers 
that have done incredible work in making the city and town what 
it is, will probably never be able to be reabsorbed back into 
the construction workforce, what is it that we can do for them.
    We can say we are going to start construction projects and 
I'm a big supporter of green energy and renewable projects, but 
there was just a report that the government spent $40 million 
and created less than 20 green jobs out of it.
    We can keep doing green energy projects and give them the 
job to put in the solar field for six months. What's going to 
happen when that goes away? Hopefully there's hope on the 
horizon about a big project that will be approved to go in 
Laughlin, where you're talking about 4,000 construction jobs.
    But what is it--I understand we've got folks that need jobs 
now. What are we going to do for the construction workers that 
will never, unfortunately, probably be able to be absorbed in 
the construction industry full-time again in Southern Nevada.
    Mr. Enns. I'll tell what you we can't do, we can't write 
them off and say, well, we can't fix it, so I'm sorry.
    Mr. Heck. I agree. That's why I'm asking, what can we do.
    Mr. Enns. I think we have a lot of opportunities in 
Southern Nevada. I'm a little more optimistic than Mr. Aguero 
here, and we work together a lot. But I am--I do work in the 
construction field and I can see lots of great opportunities.
    You mentioned the solar industry. It's a great opportunity 
here in Southern Nevada. We have something that you don't have 
throughout the whole rest of the country. I'm not an economist, 
and I'm not a military man, either. But I do know that our 
nation suffers from, if you will, we are--we require a lot of 
oil from other countries in order to keep our nation afloat, 
and that can be a big security risk to us.
    We need to find ways in our country to find our own ways of 
creating energy in this country, without having to go get it 
somewhere else, I believe. Southern Nevada is a great place for 
an entrepreneur to start up a business. Mr. McKeon, you 
mentioned about private businesses. Every single contractor 
that hires our workforce is a private company. Every one of 
them.
    Even the ones that do the solar projects around the 
country, and I would submit that there aren't very many solar 
projects that get built in six months. Most of them are at 
least a year, sometimes two to four years for the construction, 
and I don't think in the construction industry, I don't think 
we are asking for 100,000 jobs this year or next year, or even 
in five years. We would settle for 10,000 this year and maybe 
10 or 15 or 20,000 next year.
    I think we need to make end roads in that direction and one 
of the things that you, all of you can do, without overspending 
the taxpayers' money, Mr. Aguero mentioned that there's a lot 
of--there's a lack of trust, that banks are not giving loans, 
there's an uncertain marketplace that we have today and you 
can't get a loan, even if you want a loan. Do you know how many 
people would build a solar project if they could get the 
funding to do it?
    But one of the things you can do is back these people so 
they can get their loans. Government backing would be very 
helpful. And like I say, I'm not an economist and I don't 
understand all the money parts of it, but my understanding is 
that a good percentage of those would be able to be built and 
run on their own and never really need the government's money, 
only the government's co-sign and signature. That would be a 
way to get a lot of people to work. And I'm with you, Mr. Heck. 
I understand we're not going to get 100,000 jobs back in Las 
Vegas in the next couple of years, but some progress and some 
hope would sure put us in the right direction.
    Chairman Kline. Thank you, sir. The gentleman's time has 
expired. I thank the whole panel. Excellent testimony. That's 
terrific engagement and questions and answers.
    Thank you for appearing today. We'll ask you to step back 
and make room for the next panel.
    [Recess.]
    Chairman Kline. Okay, the second panel has arrived. Thank 
you for being so prompt.
    I'm always a little bit concerned when we have two panels 
that there will be time for the second panel and you all will 
have wandered off to use the facilities or something. So thank 
you very much for being prompt.
    I would now like to represent--or to recognize Mr. Heck for 
the introduction of the second panel.
    Mr. Heck. I thank you, Mr. Chairman. It is now my pleasure 
to introduce our second distinguished panel.
    Mr. Edward Guthrie has served as the executive director for 
Opportunity Village since 1994. Prior to coming to Opportunity 
Village, Mr. Guthrie served as the executive director of a 
similar organization in upstate New York and Maryland for 
almost 20 years.
    Opportunity Village operates one of the largest custodial 
service firms; owns the second largest document destruction 
firms in Las Vegas; and every year it serves over 400,000 meals 
to our servicemen and women stationed at Nellis Air Force Base.
    Mr. John Ball was named Executive Director of Workforce 
Connections, Southern Nevada Workforce Investment Board in 
November of 2007. Mr. Ball has held a variety of public sector 
leadership positions, has served as a city councilor, county 
commissioner, and in a cabinet office for two governors. Prior 
to entering public service, Mr. Ball owned and managed a real 
estate brokerage firm and served in two tours of duty for the 
United States Air Force in Vietnam. Thank you, sir.
    Ms. Rebecca Metty-Burns is the executive director of the 
College of Southern Nevada, Division of Workforce and Economic 
Development. Ms. Metty-Burns has over 16 years experience in 
the hospitality industry as a human resources leader and 
project director, supervising corporate training, international 
project development, and in organizational development 
initiatives.
    She also has extensive experience in workforce curriculum, 
design and training assessment.
    Chairman Kline. Thank you, Dr. Heck.
    A very quick reminder, the light system, I know it is going 
to be a little bit difficult for Mr. Guthrie to see the light. 
As you noticed, I wasn't quick to drop the gavel at the end of 
five minutes, but please try to--I think it is a----
    Mr. Ball. It is a short leash.
    Chairman Kline. It is a short leash. The light will turn 
green at the start of the testimony and after four minutes it 
will turn yellow and then red. Rosemary will do her best to 
stay right on top of it.
    Mr. Guthrie, thank you again for the wonderful hospitality 
here. I've enjoyed your cookies, water, the facilities, so 
thank you again, and you're recognized for five minutes.

 STATEMENT OF EDWARD GUTHRIE, EXECUTIVE DIRECTOR, OPPORTUNITY 
                            VILLAGE

    Mr. Guthrie. Thank you, Mr. Chairman. Chairman Kline, 
Congressman Heck, Congressman McKeon, and our other 
distinguished guests, I want to welcome everybody to 
Opportunity Village.
    As you said, my name is Ed Guthrie and it's been my 
distinct pleasure to be the executive director of Opportunity 
Village for 17 years now.
    When I was recruited to Opportunity Village back in 1994, I 
was told there were only three things that people in Southern 
Nevada could all agree on: one of them was Runnin' Rebels 
basketball; the other one was Nellis Air Force Base; and the 
third one was Opportunity Village, and everybody in the 
community seems to support all of them.
    We were started in 1954 by a small group of parents of 
individuals with intellectual disabilities. We got here about 
the same--we started about the same time Bugsy Siegel arrived 
in town. We were here before Howard Hughes and we have 
outlasted both of them. Another entertainer that you might 
remember is Elvis Presley. Opportunity Village has been around 
so long that every scarf that Elvis Presley ever gave away was 
sewn here at Opportunity Village. One of the little known facts 
about Opportunity Village.
    We have provided, last year we provided assessment, 
training and rehabilitation for about 1,400 adults with 
disabilities, primarily those with intellectual disabilities. 
We do it through a number of different areas. About 400 of 
those individuals are individuals with very severe 
disabilities. They're in day activities, community programs. 
The other thousand individuals are people that are either 
placed in employment or are trained and then assessed and 
placed in competitive employment out in the community.
    Here at Opportunity Village we believe people should have 
choices, informed choices, and so we offer a variety of 
different programs for individuals. One of our more successful 
programs is the Job Discovery program. It is a school-to-work 
transition program that we have been running with the Clark 
County School District for the last eight years now.
    About 80 students with severe intellectual disabilities 
come through this program every year. They get a chance to 
sample five different jobs for nine weeks each. We have found 
that they get the chance then to make all the stupid mistakes 
that you and I and others all made when we were high school 
kids on our first job. So they make them on these jobs. With 
our support, they learn from those mistakes and they are able 
to go on and find jobs in the community.
    We clean over two million square feet of government 
commercial office space. If you happened to have a glass of 
wine last night with your dinner here at one of the 
restaurants, the wine was supplied by Southern Wine and 
Spirits. We clean Southern Wine and Spirits.
    If you are a veteran, and you go to a VA clinic here in 
town, that's cleaned by Opportunity Village. If you needed to 
pull a permit to do a construction project at the government 
offices of Clark County, the government center is cleaned by 
Opportunity Village, and if you stop at the restroom at 
McCarran Airport, the restroom attendants are from Opportunity 
Village as well.
    We have the second largest document destruction company in 
Nevada. People with disabilities and Opportunity Village shred 
over 20,000 pounds of confidential documents every day.
    We are also the postal service for Nellis Air Force Base. 
We deliver a thousand pieces of mail every day, on the average, 
at Nellis Air Force Base, and our people with disabilities have 
been able to acquire all the clearances necessary to deliver 
confidential, as well as regular mail out at Nellis Air Force 
Base, and then as Congressman Heck said, we serve over 400,000 
meals every year to the airmen and women out at Nellis Air 
Force. We operate all four of their dining facilities.
    On the lighter side, if you look around this room, you will 
see some art on the walls. All the art in this facility was 
developed by people with disabilities. We've been able to sell 
over $100,000 worth of their art throughout the community, and 
if you happen to go to the Encore tonight, you will see at 
least one of our pieces of art hanging in the Encore here in 
one of the major casinos in Las Vegas.
    Then our cookies. Our cookies are my favorite part of the 
program because one of my parts of my job description is to go 
over and taste-test the cookies periodically to make sure they 
meet the high-quality standards of Opportunity Village, and we 
deliver about 3,500 cookies a day to the employee dining rooms 
of all of a number of the different casinos here in town.
    Finally, we package coffee and other condiments. I was 
telling somebody earlier, I don't know if Jeremy Aguero sells, 
but we have our own economic indexes, in addition to Jeremy's. 
Ours is the chocolate index. We package a lot of the chocolates 
that the guest room attendants place on your pillows when you 
go to stay at one of the hotels, and we can tell you the 
economy is not growing very quickly. It is growing. Either 
that, or we'd have chubbier guest room attendants than we had 
last year because we are packaging more chocolate this year 
than we packaged last year at the same time.
    We are an example of a public-private partnership. The 
building that you are in, the Kitty Rodman center here--Kitty 
Rodman is right above your head, right over there--was built as 
part of a $44 million capital campaign. $5 million of that 
money came from state and public funds; the balance of those 
funds was raised from private donors like the Ralph and Betty 
Engelstad Foundation, Kitty Rodman, Steve and Karen Thomas, 
Joyce Mack, Tom and Leslie Thomas are some of the major donors 
that contributed, but there were a whole bunch of other small 
contributions that came into Opportunity Village as well.
    Our annual operating budget is similarly a public-private 
partnership. Only 25 percent of the revenue used to operate 
Opportunity Village comes from fee-for-service revenue, either 
through Medicare, Section 110 money from the Rehabilitation 
Act, or other government money. About 45 percent of the revenue 
comes from the contracts that we discussed earlier, and a good 
30 percent of the money is fund-raising, support from the 
general public.
    If I were to give you some examples of how the community 
supports Opportunity Village, if you come back at holiday 
season, you can't have spent a holiday season in Las Vegas 
without knowing the Magical Forest at Opportunity Village. 
Literally thousands of volunteers help us.
    We have one of the few pine forests in the Mojave desert. 
We planted it ourselves. We own three trains and a carousel, 
and literally thousands of volunteers help us staff this event 
for 40 nights in a row and we raise $1.2 million to help 
operate, to help fill in the gaps for the funding for 
Opportunity Village.
    Chairman Kline. Sir, if you could wrap up your testimony.
    Mr. Guthrie. Very good.
    I guess the three things that I would like to talk about is 
how you can help us to help people with disabilities. One of 
them is we would like to see you allow greater flexibility in 
the Rehabilitation Services Act portion of the Act. That 
portion of the Act, the Section 110 basic grant is part of that 
Act and that's a formula driven on population.
    The population of Nevada has risen; the State match is not 
available because the money is simply not in the budget to do 
that. So individuals with disabilities end up waiting for 
services. Private individuals and public agencies would be 
willing to work with the State and others to come up with State 
match, but we need to be more flexible with that.
    I think we also need to be able to say that we need to 
instruct the RSA, the Rehabilitation Services Administration, 
that a placement in a--at a job at Nellis Air Force Base, even 
though it's with a small group of other people with 
disabilities, is as valued a placement as a placement at a job 
where the individual is the only person with a disability on 
the job. So any changes to that part of the Act we think would 
be detrimental to people with disabilities.
    The AbilityOne program I know is under the jurisdiction of 
this committee. It is not the subject of this meeting, but I 
think the AbilityOne program is an incredibility valuable 
program for people with disabilities. Nationwide over 50,000 
different people have jobs through it with agencies like 
Opportunity Village because of the AbilityOne program, and I 
think anything you can do to encourage subcontracting and other 
avenues like that to expand that program is incredibly 
valuable.
    Then lastly, I think the Section 14(c) program under the 
Fair Labor Standards Act protects the ability of individuals 
who cannot make minimum wage, do not have the ability to 
produce at that level, to receive a wage.
    Opportunity Village has over 700 people in our program that 
are paid special minimum wages, based on their productivity. 
Nationwide 430,000 individuals receive special minimum wages 
because of this, through the Section 14(c) program.
    If you were to try to subsidize the wages of all of those 
individuals with disabilities throughout the country, it would 
cost you an additional $4 billion. I don't think this is the 
time for the Federal government to try to take on an additional 
$4 billion dollar debt.
    Chairman Kline. Thank you, sir, for your testimony.
    [The statement of Mr. Guthrie follows:]

       Prepared Statement of Edward Guthrie, Executive Director,
                          Opportunity Village

    Mr. Chairman, Congressman Heck and other distinguished members of 
the Committee: Welcome to Opportunity Village. My name is Ed Guthrie 
and it's been my distinct pleasure to be the Executive Director of this 
fabulous agency for the past 17+ years. When I was recruited to 
Opportunity Village, I was told that there are only three things that 
everyone in Las Vegas can support: Runnin' Rebel Basketball, Nellis Air 
Force Base and Opportunity Village. A lot has changed in Las Vegas in 
the past 17 years but the support of our community for Opportunity 
Village and the people we serve has only grown.
    Opportunity Village was started in 1954 by a small group of parents 
of children with intellectual disabilities. We've always been a part of 
the fabric of Las Vegas. Opportunity Village started about the time 
Bugsy Siegel arrived in town and before Howard Hughes, and we've 
outlasted both of them. Another little known fact is that Opportunity 
Village sewed all the scarves that Elvis gave his loving fans when he 
played at what's now the Las Vegas Hilton.
    Opportunity Village provided assessment, training and employment 
services to 1,408 youth and adults with intellectual and other 
disabilities last year. We serve people with all levels of disability 
and everyone who attends Opportunity Village receives a paycheck every 
two weeks. Approximately 390 of the most severely disabled people we 
served in FY-2011 were in therapeutic day training (non-work) programs 
while over 1,000 people with severe disabilities were in vocational 
assessment, vocational training or employment programs. Of those 1,000 
people over 60% were in community employment or training programs that 
led to community employment.
    At Opportunity Village, we believe in informed choice. We do not 
believe that ``one size fits all''. People with disabilities should be 
offered a range of opportunities. That's why we offer a variety of 
options from which people with disabilities and their families can 
choose, consistent with their strengths, interests, and needs.
    <bullet> The Job Discovery program is a school-to-work transition 
program that offers students with intellectual disabilities, who are in 
their senior year of high school, the opportunity to experience five 
different jobs for nine weeks each. They get the chance to make all the 
stupid mistakes that most high school students make on their first job 
and they get to ``try on'' a career.
    <bullet> Opportunity Village cleans over 2 million square feet of 
government and commercial office space and we employ people with 
disabilities to do the cleaning. Our crew that cleans all 350,000 
square feet of the Clark County Government Center was just honored by 
the County Commissioners. You may have used one of the rest rooms we 
cleaned at McCarran Airport.
    <bullet> We are the 2nd largest document destruction company in 
Nevada. People with disabilities at Opportunity Village shred over 
20,000 pounds of confidential documents every day.
    <bullet> We are the postal service for Nellis AFB. We deliver an 
average of over 1,000 pieces of official and private mail every day. 
Our people with disabilities have the security clearances to handle all 
the confidential correspondence.
    <bullet> People with intellectual disabilities serve over 350,000 
meals every year to the brave men and women through our food service 
contract at Nellis AFB.
    <bullet> If you notice the art on the walls, this art was created 
by people with intellectual disabilities. We sold over $40,000 of their 
art, some for as much as $2,500/ piece.
    <bullet> If you smell cookies baking that's because Opportunity 
Village bakes over 15,000 cookies per week for the employee dining 
rooms at the Venetian, the Mirage and other hotel/casinos.
    <bullet> We package coffee for all the properties operated by 
Caesar's Entertainment and room amenities for other hotel/casinos. In 
fact, we have our own ``economic indicator'' that we call the 
``chocolate index''. We package the chocolates that the housekeeping 
staff leaves on your pillow and, although the economy is still slow, we 
are packaging more chocolates than we did last year.
    Opportunity Village is a great example of a ``public-private'' 
partnership. The building you are in, the Kitty Rodman Event Center, 
was built as part of a $44+ million capital campaign. A little over $5 
million was public money but almost $39 million was from private 
contributions. Some were from major donors like the Ralph & Betty 
Engelstad Foundation, Kitty Rodman, Tom and Leslie Thomas, Steven and 
Karen Thomas, and Joyce Mack but there were hundreds of other donors 
who contributed too.
    Opportunity Village's annual operating budget is also an example of 
the ``public-private'' partnership. Approximately 25% of our revenue is 
from government fees and grants (e.g. Medicaid, RSA Section 110 funds, 
etc.). About 45% of our budget is contract revenue from baking cookies, 
delivering mail, cleaning floors, etc. and the other 30% is fundraising 
income from the people of Southern Nevada.
    Opportunity Village also uses the Medicaid Home & Community-Based 
Services (HCBS) waiver to provide services to some of the most severely 
disabled adults in Nevada. Federal bureaucrats at the Center for 
Medicaid and Medicare Services (CMS) are proposing changes to Medicaid 
regulations that will deny funding to services like those provided here 
at Opportunity Village. Please help us safeguard access to these 
valuable services for people with the most severe disabilities.
    Let me give you a couple of examples of how the community supports 
Opportunity Village:
    <bullet> Everyone who has spent a holiday season in Las Vegas knows 
the Magical Forest. Opportunity Village owns one of the few pine 
forests in the Mojave Desert. We planted hundreds of pine trees at our 
West Oakey campus and every year we decorate them with millions of 
lights. We own two small trains as well as a carousel. We need 75 
volunteers a night to run the Magical Forest and every year thousands 
of people volunteer and tens of thousands pay to see the trees, ride 
the train and eat the funnel cakes. Through the efforts of our 
volunteers we raise over $1 million per year.
    <bullet> Have you ever seen a sea of ten thousand people dressed as 
Santa Claus? Well, if you are in Las Vegas on the 1st Saturday in 
December, you'll see thousands of Las Vegans dressed in Santa suits to 
participate in the ``Great Santa Run'', a 5k that raises over $300,000 
each year to benefit Opportunity Village.
    I could talk about Opportunity Village all day but the purpose of 
this hearing is to highlight local solutions to strengthen job training 
programs.
    People with intellectual disabilities have an unemployment rate of 
almost three times the rate for the average person. So, if the 
unemployment rate for average folks in Las Vegas was 13.8% in June, 
2011, then the unemployment rate for folks with intellectual 
disabilities was over 40% and it's been that way all year.
    Opportunity Village paid almost $3.9 million in wages to people 
with intellectual disabilities in FY-2011 and we estimate that people 
with severe disabilities placed in competitive employment after 
receiving services at Opportunity Village earned another $2.3 million 
last year.
    Opportunity Village found community employment for 111 people with 
severe disabilities in FY-2011. Our research shows a reduction of 
$5,000/year in welfare, Medicaid, food stamps and other benefits for 
every person that we place in community employment. People with 
disabilities gain independence and self-esteem from working, and they 
reduce their dependence on other benefits, which saves taxpayers!
    You can help us build on this success by:
    <bullet> Allow Greater Flexibility with RSA Section 110 (Basic 
Grants): Opportunity Village uses Rehabilitation Act section 110 funds 
to provide assessment, training and placement in community employment 
for people with severe disabilities. Nevada, like many States does not 
have the State tax revenue to leverage all the federal dollars that are 
available, so people linger on waiting lists for services. Encourage 
RSA to allow private agencies (and individuals) to contribute the 
``State match'' so people don't have to wait for services. Instruct RSA 
that a placement of an individual on an AbilityOne contract or ``state-
use'' contract is an acceptable ``closure''. In addition, please do not 
adopt amendments to the Rehabilitation Act that limit opportunities and 
choices currently available to persons with the most significant 
disabilities, including work experiences in mobile work crews.
    <bullet> AbilityOne: The AbilityOne program allows Federal agencies 
to purchase goods or services from community rehabilitation programs 
(like Opportunity Village) without going through the competitive bid 
process so long as 75% of the people working on these contracts are 
people with severe disabilities. Encourage Federal agencies to make 
better use of the program. For example, encourage designated 
subcontracts for AbilityOne when the Department of Defense awards 
``base operating contracts'' to large contractors. Another example 
would be to encourage Federal agencies to use AbilityOne when they are 
contracting for custodial, grounds maintenance, or other services on 
leased space.
    <bullet> Section 14(c): Section 14(c) of the Fair Labor Standards 
Act allows community rehabilitation programs (like Opportunity Village) 
to pay individuals with severe disabilities less than the minimum wage 
if their disability impedes their productivity. In 2009, over 430,000 
people with severe disabilities throughout the US received a special 
minimum wage; over 700 of those individuals were at Opportunity 
Village. Every one of the individuals served by Opportunity Village 
receives the dignity and self-respect that comes from earning a regular 
paycheck. If the federal government had to subsidize the wages for the 
almost 727 people at Opportunity Village who make less than minimum 
wage so that they could make at least minimum wage, it would cost the 
federal government approximately $6.7 million per year. This is not the 
time to ask the federal government to subsidize $6.7 million per year 
in wages to people with disabilities. Section 14(c) enables these 
individuals to receive the tangible and intangible benefits from 
working. Please oppose any and all efforts to eliminate or phase out 
this important provision of law. People with the most significant 
disabilities deserve the opportunity to work and they are counting on 
you to preserve this opportunity.
    <bullet> The Importance of Jobs for People with Intellectual 
Disabilities: People with intellectual disabilities want to able to 
live, work and play in our/their community. We need to assure that they 
have good quality services to enable them to succeed. If you look at 
the Opportunity Village logo, you'll see one person offering another 
person a ``hand-up'' * * * not a ``hand out''. Please help us help 
them. Opportunity Village and similar community rehabilitation programs 
throughout the country are doing great things for people with 
intellectual disabilities (and the families who love them). They 
deserve your support.
    Mr. Chairman, That's the end of my comments. I want to thank you 
for accepting our hospitality and listening to our concerns.
                                 ______
                                 
    Chairman Kline. Mr. Ball, you are recognized.

          STATEMENT OF JOHN BALL, EXECUTIVE DIRECTOR,
                  NEVADA WORKFORCE CONNECTIONS

    Mr. Ball. Thank you, Chairman Kline, Congressman McKeon, 
and Congressman Heck. Welcome to Southern Nevada and thank you, 
Mr. Chairman, and the Ranking Member Miller for the opportunity 
to share ideas with you today.
    You have heard a lot about why this is the best place in 
the country to have that conversation, so I'll dispense with 
that section and insert a couple of comments on some of your 
previous questions.
    Just to note that in Congressman Heck's district the Foliot 
Furniture project which is outlined in our written remarks is a 
great example of a funded partner of ours. Easter Seals worked 
really closely with the new firm to specifically tailor 
training for over 80 new employees and get them on the job and 
get that green furniture production facility up and running 
very successfully.
    Mr. Walker's hospital is a great beneficiary of another of 
our funded partners, the Southern Nevada Medical Industry 
Coalition, which actually grew out of the city manager's office 
in the City of Henderson. It has over 600 members across the 
State, with the help of a healthcare sector council. They have 
helped us kind of slice and dice why some of those problems 
have occurred, in terms of getting educated nurses into jobs.
    So for the time being we are funding a very successful 
program through the SNMIC to get that training for nurses, that 
bridge training that gets them successfully in the hospitals 
with the employer.
    Let me, Mr. Chairman, your question was how many of these 
people get a job, so let me pull just a couple of numbers out 
of our testimony and highlight that. In the face of the kind of 
circumstances that you have heard about in Southern Nevada, 
these programs are working very well. So listen to these 
numbers.
    In the program here just ended two months ago, in our adult 
program we placed--or our entered employment rate, so this is 
not training, these are people going into jobs--was 72 percent 
against our DOL target of 63 percent.
    Our retention rate was 82 percent, versus the DOL target of 
70, and our average earnings in those jobs was $11,771, against 
the DOL target of $11,500. Once again, in the toughest labor 
market in the country, these programs can work.
    In our dislocated workers program, our entered employment 
rate was 76 percent against a target of 70; our retention rate 
was 86 against the target of 80. So once again, it is working.
    On the youth side, and I think we are particularly proud of 
this, given the dropout rates that you heard before, our 
placement in employment or education was 78 percent, versus a 
federal target of 40 percent, and our attainment of degree or 
certificate was 63 percent versus 40 percent.
    Our State energy sector partnership, which is funded under 
the Recovery Act, just finished its last quarter ahead of goal. 
Last February 2nd, on National Job Shadow Day, we placed over 
3,000 young people in businesses across Southern Nevada, by far 
the largest number in the country. And our new youth program is 
operating with some numbers that I would be happy to cite, but 
you might not believe me, they are that spectacular at this 
point.
    So what we see, and I think what we can talk with you about 
over the next few months, are clear examples of how when 
business, labor, education, and local government get together, 
these programs can work. They are not without their 
difficulties and failures, but the track record is there.
    Let me cite very quickly three key cornerstones we think of 
any new act or reauthorization that we put together. The first 
is local flexibility. Mr. Chairman, you mentioned this tendency 
to think that despite all the goodwill and intelligence in 
Washington, D.C., in our case San Francisco or Carson City, 
there's nobody that knows this labor market like the business 
and labor leadership of Southern Nevada.
    So I just wanted to say one thing, when you are looking at 
what that new legislation looks like, that the Workforce 
Investment Act is an empowerment model. So every overly 
restrictive, overly restrictive regulation or policy or 
procedure or directive that you allow into that Act is a 
diminution or a reduction of our ability to meet the challenges 
and opportunities in the local labor market. So I hope you will 
be brutal and vigilant about how that language comes out in the 
act.
    Second, the local private sector leadership is key. Now, 
we've got business, labor, education, and local government. But 
those first two are the strongest cornerstones of our work. 
Business and labor are the folks that are out belly to belly 
with the realities of the labor market every day, in a global 
economy. So that information, through their eyes, that gets fed 
back to us in our working committees and staff level, that we 
can analyze and then interpret into new programs, that allows 
us to be competitive and produce the kind of numbers you are 
talking about.
    So I just want to highlight that whatever you do about 
membership or anything else, I hope you'll give us the maximum 
flexibility at the local level to choose that membership and 
understand that front line business and labor knowledge is 
what's key to this.
    Finally, I want to say, Mr. Chairman, we are extremely 
appreciative that the future workforce is represented in the 
Workforce Investment Act. We have to have that ability to build 
that pipeline over the next five, ten, fifteen, twenty years, 
and I just want to say young people that are coming out of the 
schools today are competing with literally hundreds of millions 
of young people across the globe that we didn't have to compete 
with when I was coming out of school. So they need every 
advantage we can give them and that early and successful 
connection to the world of work is an absolute key there.
    So programs like job shadows, internships, work 
experiences, summer youth programs are a critical part of our 
arsenal, and they need to be adequately funded to work, and I 
hope they will be in the new version of the federal workforce 
policy.
    You have, Mr. Chairman and members, I think the toughest 
policy area and program area at the national level right now. 
We wish you great success in continuing to improve our playing 
field, and we commit ourselves to working with you over the 
next few months.
    Chairman Kline. Thank you very much.
    [The statement of Mr. Ball follows:]

          Prepared Statement of John Ball, Executive Director,
                         Workforce Connections

    Chairman Kline, Ranking Member Miller and Members of the Committee, 
thank you for the opportunity to present this testimony today, and 
welcome to Southern Nevada. Certainly you could not have picked a more 
relevant labor market to visit in your quest for information and ideas 
regarding the strengthening of the federal workforce system. We are 
pleased to share with you a few examples of approaches that are working 
here in the face of the country's most challenging local economy, and a 
few lessons learned about preparing a globally competitive workforce in 
the 21st century.
    The work being done by Workforce Connections (we are the WIB 
serving Southern Nevada, including Clark, Esmeralda, Lincoln and Nye 
counties) and our community partners has evolved rapidly in the last 
three years in response to the dramatic shift from years of abundant 
economic growth to a state of survival for Southern Nevada's workforce. 
As one of only two WIBs serving the state, our close cooperation with 
Nevadaworks, the WIB serving Northern Nevada, allows us to align 
policies and programs to assure effective services across the diverse 
geography and local economies of the state. Specific examples of 
Workforce Connections' initiatives and data trends are presented in 
this testimony to illustrate how Workforce Investment Act initiatives 
are impacting Southern Nevada communities.
    Nevada is suffering from the worst unemployment rates in the 
country (a high of 14.9% in 2010); a grim real estate outlook, both 
commercially and residentially; the collapse of our construction 
industry and severe downturn of gaming and hospitality; and the highest 
dropout rates in the country. If you're looking for the stark 
definition of the Great Recession, you can find it here. Responding to 
these challenges, Workforce Connections and our partners have deployed 
a range of efforts to aid in job creation, upgrading skills and 
intensive support to job seekers. The need for timely and sustainable 
recovery in this region has never been greater, and designing and 
implementing creative and customized solutions locally, where 
opportunities and resources are well understood, has proven to be a 
highly effective model for the workforce system. The performance of our 
regional workforce system over the last four years, in spite of the 
negative economic environment, has been truly impressive. Attached to 
our written testimony are graphs of our performance over those four 
years. Here is a quick extract: in the program year which ended just 
two months ago, our WIA formula Adult program had an entered employment 
rate of 72% against a goal of 63%. Our retention rate was 82% against a 
goal of 70%. Our average earnings were $11,771 against a goal of 
$11,500. In our Dislocated Worker program, entered employment was 76% 
against a goal of 70%, retention rate was 86% against a goal of 80%, 
and average earnings were $14,060 against a goal of $14,500. In our WIA 
formula Youth program, placement in employment or education was 78% 
against a goal of 40%, attainment of degree or certificate was 63% 
against a goal of 40%, and literacy and numeracy gains were 23% against 
a goal of 29%.
    We look forward to a robust consideration of appropriate 
performance measures as part of the WIA Reauthorization discussions. I 
would note here that while our focus has recently, and rightfully, 
turned to job placement as an outcome, the importance of skills 
credentials, certificates and diplomas should not be minimized. In an 
increasingly competitive global economy, demand-driven credentials will 
be an important passport to career success.

Aligning Economic Development and Workforce Development at the local 
        level
    Policy and program flexibility at the local level allows successful 
WIBs to implement and continuously improve new programs that keep pace 
with the dynamic real time evolution of local and regional economies. 
WIA Reauthorization should include a thorough elimination of the 
numerous outdated and obsolete provisions and traditions that hamper 
the ability of local WIBs to keep pace with the needs of business and 
labor in the new economy, and do not improve performance accountability 
in any meaningful way. As local and state economic development and 
workforce development systems increasingly align, the timely input from 
businesses, labor, education and elected officials that drives 
successful WIBs can be a tremendous asset to intersystem alignment if 
WIBs are empowered to move at leadership speed with their partners. 
With economic and workforce development alignment, participation from 
private businesses, labor and education, and demand-driven industry 
sector strategies hitting the ground in Southern Nevada, economic 
recovery is moving forward along the road to long term sustainability.
    Southern Nevada utilizes the resources of the Workforce Investment 
Board and its partners to put ideas into action. These resources 
include a broad spectrum of current information and experienced 
thinking from a wide variety of community partnerships that are:
    <bullet> Coordinating training providers, educational institutions, 
business sectors, organized labor and a diverse group of support 
agencies to respond to the needs of job seekers
    <bullet> Identifying market driven strategies relevant to Southern 
Nevada employers
    <bullet> Supporting businesses with growth strategies, layoff 
aversion, placement of qualified applicants in new positions, or 
retraining existing employees for expanding opportunities
    <bullet> Helping rural communities achieve successful and 
sustainable local niches within the regional economy
    <bullet> Committed to building a community ethic that values 
education and preparing the future workforce for successful careers
            Example: Foliot Furniture
    Starting in 2009 Easter Seals of Southern Nevada, a funded partner 
of Workforce Connections, placed approximately 70 participants in a WIA 
On The Job Training Program to help Foliot Furniture, a manufacturer of 
green-commercial furniture, expand their business into a facility in 
southeast Las Vegas. The successful program not only helped workers 
gain employment but also created jobs in the emerging green economy 
sector; a sector recognized for its economic potential to diversify the 
local economy and provide substantive career growth opportunities.
            Workforce Connections: shoulder to shoulder with business 
                    and labor on the front lines of a changing economy
    Local workforce systems have the information and service networks 
to respond immediately to local employment shifts. The most dramatic 
loss of jobs and business in Southern Nevada has occurred in the 
construction and gaming/hospitality industries. In 2010, over 30% of 
construction jobs in Nevada disappeared. The completion of major 
projects like City Center and the Hoover Dam Bypass dovetailed with the 
cancellation of planned undertakings such as the Echelon and 
Fontainebleau resorts and the lack of funding for other needed 
infrastructure projects to decimate the construction trades. At the 
same time, traditional visitors from across the country lost personal 
income, resulting in layoffs throughout the hospitality and retail 
sectors. To offset the loss of these and other jobs, Workforce 
Connections has deployed industry sector strategies to transition 
workers into emerging markets that can better diversify the regional 
economy while building career pathways for its workers.
            Example: Rapid response efforts at the Sahara Hotel and 
                    Casino--1,000 workers terminated at once
    Workforce Connections conducted three Employment Edge workshops for 
the Sahara Hotel and Casino employees being laid off with the closing 
of the property in May of 2011. Thirty days prior to the closing, 
three-hour workshops were held covering career self assessment, resume 
writing, online job search, interviewing techniques and a number of 
other topics related to securing new employment. In addition, staff 
from Workforce Connections, DETR/One Stop Center, Nevada Partners Inc., 
AFL-CIO, AARP, NV Energy, and several other agencies were present to 
connect the employees to additional services and training, with the 
goal of easing and speeding their transitions to new jobs, in a classic 
example of the kind of crisis performance that local WIBs have been 
carrying out across the country for years, out of the limelight but 
right where the action is in the process of economic renewal.
    Let me return briefly to the issue of infrastructure investment. 
There is a golden opportunity for a high ROI (Return on Investment) 
infrastructure strategy in the Intermountain Southwest, a region of 
which Southern Nevada is the hub. It has been said that Las Vegas used 
to be in the middle of nowhere, and now it is in the middle of 
everywhere. Projections are that the Southwest will continue to have 
relatively high population growth rates for the foreseeable future, but 
the infrastructure to support critical transportation, energy 
development and transmission, and water resource management is not 
keeping pace. We previously mentioned the completion of the Hoover Dam 
Bypass Bridge, and we hope you have the opportunity to take the short 
trip out just past Boulder City to see this latest wonder of American 
engineering and construction. But it is a 21st century bridge shackled 
by a mid-20th century highway. Las Vegas and Phoenix remain the largest 
adjacent American cities not connected by an interstate highway. In the 
other direction, nearly half of the goods imported into this country 
now come through the ports of Southern California. Much of that cargo 
is transported across the Southwest, destined to be increasingly 
bottlenecked by insufficient highways and railroads. Anyone who has 
driven Interstate 15 between Los Angeles and Las Vegas is amazed at the 
lack of passenger rail service in that corridor. As alternative energy 
sources are developed in the Southwest, transmission infrastructure is 
about to become a key consideration. And the movement of water to meet 
the growing needs of cities, industries and agriculture in the 
Southwest will continue to require new capacity for storage and 
distribution.
    That's an impressive list of infrastructure needs, and the 
construction collapse in the Southwest has left in place a highly 
skilled workforce in the construction trades and building related 
professions. A portfolio of infrastructure projects across the 
Southwest could benefit from and help sustain a highly skilled 
workforce, and build a foundation for prosperity across a region that 
some demographers are referring to as the New American Heartland.

Strategic efforts to develop Southern Nevada's Health Care Sector
    As in many parts of the United States, the health care sector is 
and will remain a strong segment of local economies. The sector will 
continue to provide many family wage jobs, as well as the career 
ladders and lattices that make those jobs accessible to many workers in 
a system with well-designed, relevant training programs. The Nevada 
Health Care Sector Council was established in response to Nevada Senate 
Bill 239. This legislation required industry sector councils to convene 
for the purpose of identifying needs and practices that best meet 
regional economic development goals. Working closely with the State 
Workforce Investment Board, the council identifies and supports job 
training and education programs, and is charged with informing the 
State WIB of health care organizations that have the greatest 
likelihood of meeting regional workforce development and economic 
goals.
    To do this, the council is engaged with health care industry 
leaders in defining and addressing their workforce challenges and with 
that input, developing programs to align worker skills with industry 
needs. Council participants are representative of Nevada's health care, 
labor, education, business and government sectors. By promoting 
collaboration and encouraging the private sector to take ownership and 
investment in industry growth, the council is helping to ensure the 
long-term competitiveness of the health care sector in providing care 
to local communities and contributing to Nevada's economic health.
            Example: Work Session with Health and Human Services
    Members of the Nevada Health Care Sector Council recently met with 
Herb Shultz, Regional Director of the U.S. Department of Health and 
Human Services to discuss Nevada's determinant statistics. Dr. John 
Packham, from the University of Nevada Reno, presented health care 
minimum data sets for key professionals in Nevada. Holly Balmer and Dr. 
Hyla Winter, from the Nevada System of Higher Education, highlighted a 
survey sent to public and private institutions of higher education. Mr. 
Shultz shared information regarding health care reform and offered 
suggestions as to how the Council could benefit from upcoming funding 
opportunities and training programs for long-term unemployed health 
care professionals.

Green Economy Sector Strategy
    In support of statewide energy sector strategies, state energy 
policies and the Governor's overall workforce vision, Workforce 
Connections has an integrated team dedicated to developing Southern 
Nevada's energy efficiency and renewable resource workforce. Strategic 
alignment with Nevada's economic development agencies provides 
partnership possibilities with new employers requiring workers equipped 
with green skill sets that lead to job opportunities for Nevada's 
dislocated workers. The existing WIA funded partners network plays a 
key role in identifying adult participants seeking green job training.
    Youth participants in local WIA programs are taking part in the 
Nevada State Energy Sector Partnership (SESP) pre-apprenticeship green 
curriculum intended to expose them to green career pathways. Designed 
with an accessible ``plain English'' approach, the curriculum covers 
principles of renewable energy, energy efficiency, energy generation 
and conservation, recycling, food supply chains, water conservation, 
and other sustainable practices.
            Example: Ganix Bio-Technologies
    The Latin Chamber of Commerce is currently running an On The Job 
Training program with the innovative aquaculture company, Ganix Bio-
Technologies that has built a 30,000-square-foot shrimp farm just 30 
miles north of the Las Vegas strip. Participants in the program are 
being exposed to the cutting-edge sustainable farming concepts in a 
unique example of how Southern Nevada can supplant job losses by 
supplying the skilled workforce needed to fulfill capacity in the green 
economy sector.

Youth Development efforts to build our future workforce
    With a focus on preparing the future workforce, Workforce 
Connections coordinates many efforts to motivate and support youth in 
Southern Nevada toward educational success and career readiness. The 
primary goals of this effort are to increase Nevada's high school 
graduation rate and encourage a community ethic that values education.
    Workforce Connections is proudly working with the Nevada Public 
Education Foundation and partners across the state to align youth 
development programs with the research-based Ready for Life / Shared 
Youth Vision policy framework, including recently reorganizing our 
several WIB youth programs to be consistent with that framework. With 
the strong support of Governor Sandoval and community leaders 
throughout Nevada, the Ready for Life movement is uniting the business 
and education communities in a common effort that recognizes the 
necessity of education and workforce training as the foundation of our 
future economy.
    Workforce Connections is currently building a partnership with the 
new leadership of the Clark County School District (CCSD), one of the 
largest and most challenged school districts in the nation, as they 
launch a major initiative to increase the high school graduation rate. 
Their plans to improve the performance of Southern Nevada students 
involve individual assessment plans to define and overcome 
deficiencies, regular connection with adults to track progress and 
provide guidance, and participation from the community in mentoring 
students towards post-secondary success. Toward this last element, 
Workforce Connections is actively convening the business community as 
well as community service organizations specializing in youth 
development in meeting the demand for meaningful connections to the 
workplace.
            Example: Project 5000 Kids Job Shadow Day, February 2, 2011
    Nevada's high school graduation rate ranks last in the country. 
Project 5000 Kids (P5K) aspired to make Nevada first in something 
positive by participating in National Job Shadow Day. On February 2, 
2010 P5K paired 3,127 students with 90 Southern Nevada business 
locations and succeeded in hosting the largest Job Shadow Day effort in 
the nation. Participating companies included the City of Henderson, the 
Southern Nevada Water Authority, Las Vegas Review Journal, Desert View 
Hospital in Pahrump, Station Casinos, MGM Resorts International, and 
Caesars Entertainment. Students from 49 schools from Panaca to Pahrump 
got behind-the-scenes exposure to career opportunities available to 
them if they stay in school.
    Dr. Lisa A. Edler, Community Partnership Coordinator for East 
Career and Technical Academy noted, ``The gratitude is still brimming 
over today and the messages of `stay in school' and `go to college' 
were equally emphasized by each employer. It was the most successful 
event I have seen teachers and students attend in CCSD.'' As a direct 
result of the event, a number of students have applied for internships 
at the businesses they visited. Southwest Career and Technical Academy 
connected with representatives from Mandalay Bay and has invited them 
to serve on an advisory board for their Culinary and Hospitality 
programs. Business executives too were inspired by the caliber of 
students they got to meet and have a new confidence in our future 
workforce. ``We don't always get to see the best of young people today, 
as negative attention tends to dominate the media,'' Said Rachel Kryder 
of BEC Environmental, Inc., ``It made me feel very optimistic to be 
reminded of all the hard working and enthusiastic students out there 
that too often are overshadowed.''
            Example: The Green Monster Truck
    In a fine example of local program collaboration and strategic 
alignment, YouthBuild Las Vegas and the Nevada SESP team have piloted a 
unique green energy training program for youth know as the Green 
Monster Truck. Being launched into full service for program year 2011, 
the Green Monster Truck is a mobile classroom powered by the sun. 
Equipped with solar arrays and batteries that power on-board training 
systems, the truck is a hands-on experience that teaches renewable wind 
and solar energy generation, electrical wiring and residential energy 
auditing concepts using the very same tools and techniques used by 
professional energy auditors in the field.

Local leadership from business, labor and education
    Another key strength of the WIA system is the strong role of local 
business, labor and education leaders and organizations in developing 
relevant, demand-driven strategies and training programs, as well as 
providing experienced and skilled oversight of the investments and 
business processes of local WIBs. In addition to the majority business 
leadership on the Board of Directors, Workforce Connections works 
continuously with local chambers of commerce and professional 
development organizations to gather real-time information on the 
workforce issues affecting day-to-day business while promoting programs 
that support job growth and retention to employers.
    Our continuous business outreach efforts include current 
partnerships with:
    <bullet> Las Vegas Chamber of Commerce, Board of Trustees and 
several committees
    <bullet> North Las Vegas Chamber of Commerce, Board of Directors
    <bullet> Henderson Chamber of Commerce, organized Business 
Roundtable summit
    <bullet> Boulder City Chamber of Commerce
    <bullet> Mesquite Chamber of Commerce
    <bullet> Las Vegas Latin Chamber of Commerce
    <bullet> Las Vegas Asian Chamber of Commerce
    <bullet> Urban Chamber of Commerce
    <bullet> Women's Chamber of Commerce of Nevada
    <bullet> Nevada Development Authority
    <bullet> Nevada Restaurant Association
    <bullet> Nevada Staffing Association
    <bullet> Southern Nevada Human Resource Association
            Example: Business Roundtables
    In a grassroots economic development effort Workforce Connections 
has convened a nine-part series of business roundtable discussions for 
business owners, managers and professionals. Partnered with local 
chambers of commerce, the roundtables host a panel of economic and 
business experts who share information on the current state of affairs 
and future economic outlook of Southern Nevada followed by a dialogue 
with attendees to develop actionable projects intended to provide 
positive and enterprising benefits to local businesses. The series 
expects to host 1,000 attendees by the end of 2011.

In conclusion
    Chairman Kline and Ranking Member Miller, we will conclude by 
offering you our continued cooperation and support as you chart the 
future of the federal workforce system. In Southern Nevada, we know 
that it works. While we have had the nation's highest unemployment rate 
for some time, we now also have the most rapidly declining unemployment 
rate. The resources of the WIA system and the local partnerships it 
supports have been a successful part of that progress. The timely 
infusion of additional formula funds and new ARRA funding was 
absolutely critical to our region's ability to expand and improve vital 
workforce services at the most critical moment in decades. Local 
flexibility is a key strength of the system, and should be reflected in 
the rethinking of everything from WIB membership requirements to 
outdated funding silos to the percentage of system funding that reaches 
the local level, where the information and action is. Another key 
strength of WIA is its reach into the future workforce. Again, the 
ability to customize strategies at the community, school district and 
neighborhood levels is paramount, and the importance of strong summer 
youth employment programs in linking educational success and workforce 
readiness is evident nationwide.
    Thank you again for the opportunity to testify. Enjoy your visit in 
Southern Nevada, and Godspeed on your journey home.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Kline. Ms. Metty-Burns.

STATEMENT OF REBECCA METTY-BURNS, EXECUTIVE DIRECTOR, DIVISION 
  OF WORKFORCE AND ECONOMIC DEVELOPMENT, COLLEGE OF SOUTHERN 
                       NEVADA, LAS VEGAS

    Ms. Metty-Burns. Chairman Kline and members of the 
committee, thank you very much for the opportunity to talk with 
you about job training programs at the College of Southern 
Nevada.
    I'm with the Division of Workforce and Economic Development 
at CSN. We operate industry driven workforce programs that 
support the enhancement of skills and education for the 
Southern Nevada workforce.
    Within the workforce programs we've had mixed results with 
the ability to access and utilize Workforce Investment Act 
funds. We continue to find it challenging and frequently 
frustrating to provide the training and education the local 
workforce needs when confined to the limitations that come with 
the fund.
    At times we are choosing to opt out of requesting the funds 
when requirements demand cumbersome bureaucratic administration 
be put in place over a focus on quality delivery of education. 
Often funds are tied up in case management with the remaining 
training dollars being so few they can't make a significant 
impact. The certificate and degree programs at the college are 
not even eligible for WIA funds, even though a more in-depth 
educational approach may be the more appropriate pathway for 
job placement, a higher wage, or long-term success.
    Within the division, our workforce programs are self-
funded. We must deliver programs local industry demands. We 
have moved forward to develop our own solutions to fund 
innovations needed in program design and delivery in order to 
impact our community.
    Our first focus was to remove the silo from programs funded 
with WIA money and strategically extend their impact. Our Adult 
Education program receives WIA Title II funding. We have 
started blending our workforce training expertise with our 
basic skills classes in order to more effectively serve our 
students.
    A core skill for many careers in Las Vegas is, of course, 
customer service. English as a Second Language for Luxury Las 
Vegas Customer Service was developed in partnership with two 
hospitality companies. We utilized our own reserve funds, no 
WIA funds, to build curriculum. We embedded ESL instructors in 
the hospitality operation in order to assign curriculum with 
realistic guest interactions and to reflect customer service 
standards in our workforce.
    The employers and employees were highly satisfied with the 
results, and our assessment shows exceptional gains, even with 
shorter instructional time.
    We ask you to consider adjusting WIA performance measures 
to allow flexibility in education and training measurements to 
reflect meeting competencies required of business and 
industries as successful program operation.
    Many of our students enter into programs with skill levels 
that would require extended instruction. As an example, 114 
entering GED preparation students were recently assessed and we 
found 49 percent are entering the program with a third grade to 
sixth grade equivalent level in their language and math skills.
    We recognize we must provide more than a single method in 
instruction to impact these students, so we redesigned the 
curriculum and the approach. We're using a hybrid approach as 
students attend instructor-led classes and do course work on-
line and an accelerated approach that incorporates instructors 
on-line and individualized tutoring. Students will also take 
the WorkKeys assessment, providing students the ability to 
obtain the National Career Readiness Certificate as well.
    We are overwhelmed with the need to improve basic skills 
for a large part of our workforce. Over 17 percent of the Clark 
County workforce does not have a high school diploma.
    As you are making decisions on how to direct available 
funds, please place Adult Education on the priority list.
    It is with the technical skills training that it seems most 
difficult to work with WIA funds. We've decided to target our 
program development around job gaps in the workforce, rather 
than chasing funding trends. For example, while funding was 
available for green jobs training, we couldn't find job 
openings in the local area. However, there were jobs for 
dialysis patient care technicians.
    We designed the patient care technician training programs 
so students receive instruction at Workforce Division, and then 
through a partnership with the local dialysis clinic the 
students also receive 220 hours of clinical experience. The 
program was started with a donation of refurbished equipment 
and reserve funds were utilized for curriculum.
    From our first classes, 23 of the 24 students were 
unemployed. Currently, 19 are now employed as patient care 
technicians. Our current class orientation had 40 potential 
students attending. However, we are only able to enroll 12 at a 
time.
    The demand for these students continues to grow as local 
dialysis clinics look to our students to fill available 
positions.
    Many of these students are interested in continuing their 
education to more advanced healthcare roles. We hope you will 
consider aligning WIA funding for advanced certifications and 
degree attainment through the community colleges.
    The opportunity to reauthorize the Workforce Investment Act 
is a call to action. Allocating investment in community 
colleges allows greater reach to more of the workforce and the 
ability to train the technology to compete globally. Funding 
decisions need to be tied to education programs that 
demonstrate industry-required skills, abilities and knowledge, 
to provide the best opportunity for job attainment or job 
retention. Community college workforce programs are well 
positioned to deliver holistic approach.
    Hold us accountable, but have the accountability make sense 
to the needs of the community and have measurements and 
outcomes that reflect the competencies needed by industry. Most 
of all, include higher education as a significant stakeholder 
in the decisions on program investment and innovations for 
workforce development.
    Again, I want to thank you for the opportunity to testify 
in this vital discussion, investing in our workforce. The 
College of Southern Nevada truly appreciates the work and time. 
You are helping to improve our workforce and community.
    [The statement of Ms. Metty-Burns follows:]

Prepared Statement of Rebecca Metty-Burns, Executive Director, Division 
    of Workforce & Economic Development, College of Southern Nevada

    Chairman Kline and members of the Committee on Education and the 
Workforce, welcome to Nevada and thank you for the opportunity to talk 
with you about job training programs at the College of Southern Nevada. 
I am Rebecca Metty-Burns, Executive Director of the Division of 
Workforce & Economic Development at the College of Southern Nevada. The 
Division operates industry driven workforce programs to support the 
enhancement of skills and education for the Southern Nevada workforce.
    Within our workforce programs we have had mixed results with our 
ability to access and utilize Workforce Investment Act (WIA) funds. We 
continue to find it challenging and frequently frustrating to provide 
the training and education that the local workforce needs when confined 
to the limitations that come with WIA funds. At times we are choosing 
to opt out of requesting the funds when the requirements demand a 
cumbersome bureaucratic administration be put in place over a focus on 
quality delivery of education. Often funds are tied up in case 
management with the remaining training dollars being so few they cannot 
make a significant impact. The certificate and degree programs at the 
College are not even eligible for WIA funds as the timeframe exceeds 
what WIA will allow, even though a more in-depth educational approach 
may be the more appropriate pathway for job placement, a higher wage or 
long term success.
    Within the division our workforce programs are self-funded. We must 
be able to cover the costs of the programs and division staff expenses 
or we do not operate. We can't rely on federal metrics to prove our 
validity; we must deliver programs local industry demands. We have 
moved forward to develop our own solutions to fund innovations needed 
in program design and delivery in order to impact our community.
    Our first focus was to remove the silo from programs funded with 
WIA money and strategically extend their impact and link students with 
a more holistic approach to skills attainment. Our Adult Education 
program receives WIA Title II funding. We have started blending our 
workforce training expertise with our basic skills classes in order to 
more effectively serve our students.
    A core skill for many careers in Las Vegas is of course customer 
service. ESL for Luxury Las Vegas Customer Service was developed in 
partnership with Aria Resort and Casino and the Four Seasons of Las 
Vegas. We utilized our own reserve funds, no WIA funds, to build 
curriculum so the materials could be used for many programs, not solely 
those funded by WIA. The hospitality companies offered full access to 
our ESL instructors and we imbedded them in the hospitality operation 
while they were designing curriculum in order to use realistic guest 
interactions and understand customer service standards for our local 
workforce. We then piloted two classes with employees of the partner 
companies. Our goals were to improve student understanding of customer 
service standards and to increase their skill level with customer 
service vocabulary and conversation. The employers and employees were 
highly satisfied with the results. We also ran the traditional 
assessments we use to measure language competency with these industry 
focused classes. In a typical class we look for a 3-4 point test gain 
after 70-100 hours of instruction. These classes were shorter, 50-60 
hours. However, one group was right on target with a 3.5 point gain; 
another group gained a phenomenal 10.75 average increase on their post-
assessment.
    We ask you to consider adjusting WIA performance measures to allow 
flexibility in education and training measurements to reflect meeting 
competencies required of business and industry as successful program 
operation.
    Over the past 5 years the Adult Education programs have had over 
18,500 enrollments for classes for GED attainment, English as a Second 
Language and Civics. Many of our students enter in to programs with 
skill levels that will require extended instruction, so a student may 
enroll multiple times. We recently held a registration for the start up 
of several new GED classes. We assessed the skills of 114 GED 
Preparation students and found 49% are entering the program with a 3rd 
grade to 6th grade level equivalent in their language and math skills. 
Half of these students are currently working in our workforce. We know 
these students will need a great deal of time and a steady pace to 
build basic skills in order to obtain their GED Certificate. However, 
we also have the other half of the population that has the foundational 
skills to move more rapidly towards taking the GED exam.
    We recognize we must provide more than a single method in 
instruction to impact these students. We need to fund and incorporate 
technology and increase interaction to improve results and provide 
workforce related skills at the same time as GED attainment. So we 
redesigned the curriculum and the approach. To answer the needs 
reflected in the extreme range of levels, the program focuses on 
increasing individual attention, appropriate pacing and blending of 
workforce skills. To introduce students back to the learning process 
and provide a supportive environment, the GED 100 Series for students 
with a third to sixth grade level equivalent was designed to steadily 
and progressively build their basic skills in a more traditional 
classroom environment.
    Students at the next skill level enter our GED Studio which is a 
hybrid approach as students attend instructor lead classes as well as 
do course work on an online GED program. By providing the additional 
online resource, students will be able to accelerate through the 
program as well as develop their computer skills.
    The final step is our GED XL, an accelerated course that will 
incorporate an instructor, online GED program as well as individualized 
tutoring. The GED XL course will also offer the opportunity for 
students to work on their next steps upon receipt of their GED 
Certificate. Students will take the WorkKeys assessment, a nationally 
recognized workforce skills assessment. This also provides students the 
ability to obtain a National Career Readiness Certificate. Students 
then meet one-on-one with a coach to discuss career interests and 
options. We introduce them to an online tool that helps them build a 
resume; search jobs and provides information on local wages and 
forecasted job openings.
    As you are making decisions on how to direct available funds please 
place Adult Education on the priority list. We are overwhelmed with the 
need to improve basic skills for a large part of our workforce; over 
17% of the Clark County workforce does not have a high school diploma. 
These new approaches need initial funding to develop curriculum and 
purchase technology, however, they serve students better, accelerate 
learning and provide employers with a higher skill employee.
    We are excited about these programs and we are committed to the 
students that work so hard to improve their lives with educational 
attainment. We will continue to research, design and implement 
workforce programs that will take them from basic skills achievement 
through opportunities to start careers with technical skills training. 
It is with the technical skills training that it seems to be most 
difficult to work with WIA funds, even though that training is where 
job opportunities are connected.
    We decided to target our program development around the job gaps in 
the workforce rather than chasing funding trends. For example, while 
funding was available for ``green jobs'' training, there were no job 
openings in the local area. However, there were jobs for dialysis 
patient care technicians but no dialysis training programs in Nevada 
outside of internal company programs. The Patient Care Technician 
training program was designed so students receive instruction in the 
Workforce Division and through a partnership with a local dialysis 
clinic the students also receive 220 hours of clinical experience. 
Students who successfully complete this program are prepared for the 
national Patient Care Technician exam and to work in a dialysis clinic. 
The program was started with the donation of refurbished equipment and 
reserve funds were utilized for curriculum and for new equipment.
    We've been able to first pilot and then run two additional classes, 
however we are limited to 10-12 students at a time due to lack of space 
for more students and dialysis equipment. Since the training started 24 
students have completed the program. Twenty-three of the 24 students 
were unemployed. Currently nineteen (79%) are now employed as Patient 
Care Technicians in dialysis clinics in Nevada and surrounding states. 
Students must pass a national certification exam and to date, 83 % of 
students taking the exam have successfully passed the exam on their 
first attempt. The classes are filled on a first-come, first-serve 
basis. In preparation for our current class an orientation had 40 
potential students attending and yet we are only able to enroll 12. The 
demand for these students continues to grow as local dialysis clinics 
have discontinued their own training programs and look to students from 
our training program to fill available positions.
    Where could WIA funding help? This course could be offered more 
often or we could increase the number of students if we had additional 
space and equipment. Creating a healthcare lab would actually impact 
many of our healthcare programs allowing increased enrollments and more 
hands-on training.
    Many of these students are interested in continuing their education 
to more advanced healthcare roles, something we need locally and 
nationally. We encourage you to add WIA funding for advanced 
certifications and degree attainment through the community colleges.
    The opportunity to reauthorize the Workforce Investment Act is a 
call for action. Allocating investment in the community colleges allows 
greater reach to more of the workforce and the ability to train the 
workforce with technology needed to compete globally. Funding decisions 
need to be tied to education programs that demonstrate industry 
required knowledge, skills and abilities to provide the best 
opportunity for job attainment or job retention. Community college 
workforce programs are well positioned to deliver a holistic approach. 
Hold us accountable but have the accountability make sense to the needs 
of the community and have measurements and outcomes that reflect true 
progress based on the competencies needed by industry. Most of all 
include higher education as a significant stakeholder in the decisions 
on program investment and innovations for workforce development.
    Again I want to thank you for this opportunity to testify during 
this vital discussion regarding investing in our workforce. The College 
of Southern Nevada truly appreciates the work and time you are 
dedicating to helping us improve our workforce and our community.
                                 ______
                                 
    Chairman Kline. Thank you very much, all three of you, for 
your testimony.
    As you saw earlier, we'll go through a series now of 
questions to further explore some of your testimony. I very 
much appreciate the recognition that Mr. Ball and Ms. Metty-
Burns gave to the importance of businesses, business leaders, 
if you will, in making a connection and it makes sense as part 
of the discussion we had with the last panel as we go forward.
    We sense a fair amount of red tape out there and some 
bureaucratic impediments that might be getting in the way as 
well and we want to explore both of those things.
    Mr. Guthrie, you have kind of a unique challenge here, and 
you are stepping up, and really, really helping a challenged 
part of the community, and let me start with you. In terms of 
impediments that are coming from Washington that you would like 
some help removing, call it red tape or unnecessary regulation, 
or something like that.
    Mr. Guthrie. Again, I would go back to the rehabilitation 
services portion of the WIA reauthorization. I think that 
there's certain things that people decide certain jobs are 
better than other jobs because of social inclusion, or 
something like that. My experience has been with people with 
disabilities, especially some of the folks with intellectual 
disabilities, if I can get them a job for eight, ten, $12.00 an 
hour, they don't care if they are working with other people 
with disabilities or whether they are working with people 
without disabilities. What they really want is the same thing 
you and I want. They want the most money they can get for their 
efforts, and they want good benefits, if they can get them, to 
go along with it. And where the job is and how the job is 
positioned aren't really as important to them as it is to some 
of the bureaucrats in Washington, D.C.
    Chairman Kline. Thank you.
    Mr. Ball, you asked for flexibility. You would be surprised 
to know that we are all for flexibility, as long as there is 
some accountability out there because we want it to work. 
That's the bottom line, we want this to work.
    We shouldn't be spending a dime on these programs, if it 
doesn't produce. So I was very much--I very much appreciated 
your comments about the people here in Southern Nevada know 
better than the people in Washington, D.C., or I think you said 
Sacramento or Carson City, or something like that. It makes 
perfect sense to me and we want to do that. I'd venture to say, 
not speaking for my colleagues here, that we would be inclined 
to support that.
    Again, I want to get at the role of local business leaders 
and how you are able to incorporate that because it seems to me 
that if there isn't communication between the people who have 
the jobs to offer and those that are getting potential 
employees ready, it's never going to work. So can you again 
just expand a little bit on that link between the business 
leaders.
    Mr. Ball. Yes, Mr. Chairman. As I say, a big part of our 
program and the success of our board and our partners in the 
region has been a constant outreach to the business and labor 
community, and keep that conversation going all the time. We 
have a series right now, a series of round tables with about 
nine chambers of commerce across the region, sitting down with 
about 100 at a time and it's working out, primarily it's small 
business owners and having a back and forth dialogue for couple 
of hours.
    Chairman Kline. This is a formalized process or a regular 
process.
    Mr. Ball. It is something we started a few months ago, just 
out of the box with it. It is totally an extemporaneous impulse 
on our part. We are tying it to an aggressive approach of 
moving from the traditional rapid response approach to business 
failure, to the more aggressive layoff aversion approach where 
we actually get with businesses, understand what's going on in 
their sector ahead of time, and can design programs to help 
them stay in business.
    So that's an example of the process we use. I don't think 
there's a better example of the result, Mr. Chairman, than I 
mentioned before the Southern Nevada Medical Industry 
Coalition. Over--I'm sure that Congressmen Heck is familiar, 
probably all of his friends are members of that thing, and most 
of the hospitals, clinics, professionals across the State.
    So these sector strategies that we have been using for ten 
or twelve years in some parts of the country really work and 
the strategy that's been employed by that group over the last 
five or eight years, fortunately, finally now includes an 
employment portion, which it did not before.
    But it gives that targeted sector and that is targeting not 
just broadcasting our money, shotgun approach, but a rifle 
approach on what the statisticians like Mr. Aguero tell us are 
the key places where we can maximize the return on investment 
in the public sector expenditure, forming these councils around 
those sectors, and allowing the executives, the labor, and 
others to come to the table and talk about--as partners, not as 
competitors--how their industry can benefit from all the 
private side investment and cross-fertilization, but also the 
strategic investment of the relatively small public sector 
funds that we have.
    Chairman Kline. Thank you. I see our time has expired. Mr. 
McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. I also touched on that 
local flexibility. As I mentioned earlier, when we start out to 
write a bill into law, it generally doesn't end up, because of 
all the things you have to go through to get it through. The 
flexibility was one of our principles that we were trying to 
have in the law.
    I come from a local government background. I served on a 
school board for a number of years, and the city council. So 
when I talk local control, I'm talking local, not State, not 
federal, not even county. Right now, whether that may be a 
county, a city, it may be a community.
    What, flexibility, what would you do to change the law 
right now to provide flexibility.
    Mr. Ball. Mr. Chairman and Congressmen, my request for you, 
my hope would be that every, at every point in your process 
that you have a choice between flexibility and dictation from a 
higher level, you would choose flexibility specifically, that 
you will always lean forward in that direction because it 
crosses almost everything that's going to be in your bill. 
Somebody at the State, regional, and federal level is going to 
have a perfectly well-founded opinion about.
    I would ask you to demur from that and accept the local 
wisdom that makes these operations work. There are a lot of 
examples and it would be everything from who sits on a local 
board, do we really need somebody in a back room in Washington, 
D.C. saying this position in this agency in Southern Nevada 
should hold this seat on this board? That person in this labor 
market might not, by virtue of how their organizations are 
organized under State government, might not be plugged into the 
labor market at all. You have sat on city councils that----
    Mr. McKeon. One thing we did is require there be a majority 
of business people.
    Mr. Ball. That's right.
    Mr. McKeon. Because we don't have, we found that if you get 
everybody else, without the business community you couldn't 
really connect with the jobs and prepare people for jobs if you 
don't know what they are.
    Mr. Ball. Yes. And my earlier remarks said that's the key.
    Mr. McKeon. What is the problem? For years we have been 
working on this, and I would talk to Senator Kennedy, and say 
let's get this done; to George Miller, let's get this done. 
They were held up on their side by unions. What is the problem?
    Mr. Ball. Well, I think you heard in the previous panel 
some of the concerns that some of the organized labor has. Some 
of that is valid concern. But, you know, as we say that in our 
view, the answer to the problems of democracy is more 
democracy.
    The answer to the problems of how these local boards work 
is to go to the strengths of the model and that is that local 
flexibility and the business-labor partnership that should be 
brought to bear in working on these problems. You can't fix 
that by decree out of Washington, D.C. You have to have leaves 
at the local community.
    So I think of it as we do, spending a lot of time nurturing 
those relationships, building, once again the medical industry 
is a great example.
    Mr. McKeon. You already do that here. But the labor leaders 
in Washington were telling them that for whatever reason you 
can't reauthorize this bill because maybe they didn't like the 
majority of business. I don't know what it is.
    Mr. Ball. Well, please keep in mind also the community 
colleges have interests, the workforce boards have lobbying 
organizations that have their interests, labor does at the 
national level, the chambers of commerce. Everyone has that 
point of view at the national level.
    My point to you, please try to remember, that is none of 
those allow for the idiosyncrasies of 550 service delivery 
areas in the country. So I'm making the point that every time 
you go for a national one-size-fits-all set of wording about 
how this thing needs to work in Timbuktu and in Tucson, you are 
giving up the basic strength of the model, which is the 
innovation and creativity of the local knowledge, based on a 
belly-to-belly of information source at the labor market that 
allows us to tune programs on a daily, weekly, monthly basis. 
You don't get that.
    Mr. McKeon. I have a bill that I've introduced. It's on the 
web. If you could go to it, if you see places where we could 
fix where we are not being flexible, I would just appreciate 
anything that you could send to me on that. Because, again, my 
district, I go from L.A. County, which is huge, L.A. city, to 
Bridgeport County, the county seat has 500 people. So I mean 
tremendous differentiation, in one Congressional district, out 
of 435. And we try to solve all of that out of Washington, and 
it doesn't make sense.
    So I would really like to, any comments that you have, 
anything that you could tell us where we are stepping over, 
because we don't want to do that.
    Mr. Ball. We would be happy to do that.
    Mr. McKeon. Thank you. The gentleman's time has expired. 
Dr. Heck.
    Mr. Heck. Thank you, Mr. Chairman.
    Ms. Metty-Burns, what's the interaction between the College 
of Southern Nevada and the Workforce Investment Board? What's 
the relationship that you have? Are there federal obstacles--
you talked about several obstacles that you face. Are there 
obstacles in that relationship that need to be addressed.
    Ms. Metty-Burns. I think a lot of the obstacles come from 
the dialogue that's just been occurring with the flexibility. A 
lot of what we want to do is go in and make sure we are looking 
at the educational program design, reach out to business 
leaders to do that, to make sure that those are matching up.
    The limitations without funding may mean that there's case 
management that has to be involved and that's over here in 
another sector, and it may not allow us to actually make use of 
those fundings the way that the businesses said we would like 
you to match this educational program up. So I think that's 
been one of the challenges, is trying to work with whatever the 
parameters are in place that they have to answer to, and we 
certainly have other parameters we have to answer to as well. 
Sometimes they are not matching up.
    Mr. Heck. Mr. Ball, any comments.
    Mr. Ball. If I could, we have a couple of great examples of 
success stories with the college, and one notable place where 
we could not get together, just last year we allocated $600,000 
to the college for services in a rural county and the 
restrictions of our business model and the regulations we have 
to meet literally made it impossible for the college to design 
that program and operate it within their policies of the 
college. So they ended up returning, or not being able to 
utilize those funds.
    Mr. Heck. Was that a regulation or an issue on a federal 
level, or issues within the community college, the College of 
Southern Nevada, within the college system and the workforce 
connection system, or was it Washington.
    Mr. Ball. Congressman, I don't think there's a single part 
of that issue that we could not have worked out. There are some 
realities about the business models that are--that don't fit.
    Mr. Heck. Thank you. I appreciate that. Mr. Ball, I've got 
to ask, because your impressive statistics beg the question: 
How did you achieve that level of success? What's your best 
practice model?
    Mr. Ball. Well, a piece of it is moving to sector councils 
from broadcast funding to targeting the places where the jobs 
are. The other is a very close connection with the business and 
labor so we know what the training is going to take to actually 
make the placement, and finally it is, I think, Southern 
Nevada, given the crash of our business model, for 20 years 
people didn't have to worry about workforce development here, 
but in the last three or four, they have started paying 
attention to what it takes for the community to come together 
and build the kinds of coalitions that the medical industry and 
the green economy are building now, and focus on outcomes, and 
not just on activities.
    Mr. Heck. Thank you. Mr. Chairman, I'll yield back the 
balance of my time.
    Chairman Kline. Thank you, gentlemen. I see we are nearing 
the end of the allotted time. Mr. McKeon, did you have another 
question you would like to get in.
    Mr. McKeon. A comment, or question.
    Chairman Kline. The gentleman is recognized.
    Mr. McKeon. Thank you, Mr. Chairman. The thing we see 
sometimes in the education committee is rivalries between 
traditional colleges, community colleges, for-profit colleges, 
organizations, and it seems like the traditional schools kind 
of look down on the proprietary schools and the community 
colleges, and I find that the proprietary colleges and 
community colleges many times can be much more responsive. They 
are more interested in jobs.
    The major traditional universities seem like they are 
interested in an education. If that leads to a job, you know, 
so be it.
    I think there's room for all of them, and I try to tell 
them why we are fighting each other. Our competition should be 
China, India, other places around the world, not ourselves, 
because there's room for everybody. We're turning away students 
every year.
    The proprietary schools have really grown in the last three 
years and they are providing an edge and they are not taking 
away students from traditional schools, none of them that I 
know of are hurting. They are not looking for students, they 
are turning away students.
    So I don't know if you want to comment on that or how you 
see that affecting getting people into the job market. I'm 
interested in your comment.
    Ms. Metty-Burns. Well, I think certainly competition in any 
area is a good thing. Everybody can bring something else to 
that. Really, the division that I have as part of the college 
is to answer to that immediate need of industry so that we can 
pull the best of programs and deliver customized training to 
businesses and industry, similar to answering any questions 
about where can we educate for jobs.
    I also think there is a lot of programs being looked at 
very hard about how are we delivering education overall in the 
colleges and universities to get the jobs when they are done, 
and I think that's a major topic of discussion at this point, 
and certainly as we are working very hard to bring basic skill 
levels up, because if you can't get people placed in the jobs 
until they have some basic skill levels that allow them to get 
the technical training, and all of those are convergent.
    There is plenty for everyone to do, quite honestly. There's 
plenty for all of us to do.
    Mr. Ball. Mr. Chairman, if I might just very briefly, one 
area where we would call on all the educational institutions to 
take a look, and I think we share these concerns with organized 
labor and industry, is that in our dislocated workers programs, 
the academic calendar, the class scheduling, under the current 
established traditions of those institutions does not match the 
needs of dislocated workers.
    We need to look at a radically changed schedule which goes 
for full day, classroom scheduling full week, and get 
dislocated workers retrained into the jobs we know are out 
there. There are a lot of vacancies that just need skill 
adjustment and get them out the door, instead of having to wait 
two or three quarters or semesters to get the sequencing in our 
traditional system.
    You asked the question earlier about the construction 
workers. I just want to give you an example out of the Pacific 
Northwest. When we converted from a timber economy and 
construction economy up there, I worked with high tech leaders 
from the Silicon Valley to Seoul, Korea, changed the State tax 
laws, created incentives around investment and a new plan, and 
cross-trained a generation of timber fallers and mill workers 
into what are now high tech fab plants. Intel alone, 15,000 
jobs in Washington County in the Silicon forest. The average 
wage in those jobs is $110,000 a year.
    Now, it was challenging to get the guys that were used to 
shuffling trees and limbs around to a plate of silicon, and 
understanding that if they dropped it, it didn't just bounce, 
but $200,000 of investment went down the tube.
    But it worked and it was because the educational 
institutions worked with us and with the employers to target 
that training to get the workers in there, get them skilled and 
in the plant.
    Chairman Kline. Thank you very much. I want to thank the 
witnesses for your testimony, and for a really engaging 
conversation, I think it is very helpful.
    Clearly, Mr. Ball, we talked about flexibility. There's a 
lot of flexibility here. We are looking for flexibility in 
educational institutions; we're looking for flexibility from 
the federal government in how the boards are formed because we 
want it to work.
    If, at the end of this process, we have reauthorized a bill 
and it is not working, we are not getting people the training 
they need for the jobs that are available, we clearly will have 
failed.
    So I very much appreciate the information we gathered today 
from both panels. I want to thank the witnesses again for your 
engagement.
    There being no further business, the committee stands 
adjourned.
    [Additional submission of Mr. Kline follows:]

      Prepared Statement of Danielle Milam, Development Director,
                Las Vegas-Clark County Library District

    My name is Danielle Milam, and I serve as Development Director for 
the Las Vegas-Clark County Library District. On behalf of the Board of 
Trustees and leadership of the Library District, I welcome Chairman 
Kline and other distinguished guests to Las Vegas. We would like to 
express our appreciation to you and our Congressman Joe Heck, for your 
leadership in addressing the question we are most interested in here in 
this region: how can we get Americans back to work quickly, with the 
21st Century skills that will ensure employability, productivity, and 
economic security in the long term?
    Public libraries today embody the spirit of American 
entrepreneurial innovation, self-discovery and self-improvement. In our 
Library District's service area of 1.5 million people, over 656,000 
residents are active library users. Last year people checked out 12.6 
million items. We hosted 6.5 million visits and 1.4 million computer 
sessions, making us one of the busiest urban public libraries in the 
nation. Of the 13 branches here in the metro Vegas Valley, five 
branches circulate over a million items a year. Our newest facility, 
which opened in May this year, is circulating over 100,000 items per 
month and kids pour in from neighboring schools at 2:30 to get on the 
computers. In some of our 12 rural locations in remote Clark County, we 
are the only source of community internet access.
    These statistics illustrate what has been happening in libraries 
since the beginning of the local recession in spring 2009. Despite a 
30% drop in local tax revenues (property and sales), the Library 
District has maintained seven-day-a-week, 60 hour-a-week service, for 
the reasons you have heard today--in our region, a great number of 
people need to find jobs, keep their homes, get on the internet and 
access information for school, health or business.
    Since early 2009, the Library District has seen demand soar for 
programs that support employment search and placement: resume 
preparation and job readiness classes; career research, assessments, 
and self-study certifications; computer training and English language 
instruction. We have experienced a boom in volunteers, with close to 
80,000 hours contributed last year by people who are in between jobs, 
looking for jobs, or trying to build employment resumes. We have seen 
more people showing up in our branches with their laptops to take 
advantage of free public Wifi, as households cut expenses, including 
their monthly internet connection.
    The Library District is actively and successfully building stronger 
working relationships with schools, colleges, universities, and a wide 
variety of strong local agencies like Opportunity Village, SCORE, RSVP, 
AARP, Vegas PBS, KNPR, Three Square, and Catholic Charities. In that 
context, we are defining our role, and realigning our resources and 
strategies for adult learning to respond to local residents' need to 
search for jobs and prepare for job interviews, retool workforce skills 
with new digital literacies, reinvent or expand their small businesses, 
or do business with employers or government agencies which are 
increasingly only accessible online.
    One of our most successful new programs is E.A.S.E. (Educational 
Assistance to Sustain Employment). This prototype program, funded 
jointly by the Library District and Department of Education, leveraged 
federal funding with our considerable expertise in providing adult 
literacy, citizenship, and English language instruction, and our 
knowledge of how to improve the reading, writing, and verbal skills 
essential to attaining and retaining employment. Another initiative in 
development, the Youth Digilab Design Studio, will provide youth with 
technology and training to produce digital products ranging from videos 
to powerpoint presentations to publications. We know that the result of 
this program will be youth who are ready for 21st Century employment 
environments.
    We have also tuned up our portfolio of online resources which are 
available to job-seekers 24/7. Our website, which was accessed 3.8 
million times last year, has prominent links to resources at the 
Department of Labor--Employment and Training Administration, the Nevada 
Career Information System, and private vendors like Resume Maker, 
BrainFuse (an online homework help and tutor service) and 
LearningExpress (which provides free online practice tests such as 
courses for realtors and civil service, or tests, such as the GED, SAT 
and others). Our cardholders enjoy 24/7 access to a variety of local, 
regional and national newspapers and business research databases, such 
as Business Source Elite and Reference USA. We have strong ties to 
local employers and support their employment recruitment efforts with 
links to Gaming Work Permits, for example, and local employer job 
posting sites.
    When thinking about improving the employment pipelines of the U.S., 
it would be remiss not to mention the most critical role played by 
public libraries: promoting reading and school support. Every week our 
Library District holds hundreds of reading programs for families with 
young children, provides homework support for school-age youth, and 
information or instructional programs for people transitioning from 
school to work or work to school. Current research points to reading 
and new digital literacies as critical foundations for education, 
employment and entrepreneurial success.
    Industrialist Andrew Carnegie called libraries ``People's 
Universities'' because they support career and workforce development, 
support people who want to better their lives, their employment 
opportunities, and their ability to thrive in increasingly complex 
business environments.
    Today's public libraries are models for digital skill diffusion and 
workforce development. Every day over 300,000 Americans get job-seeking 
help in public libraries. The number of libraries with free public WiFi 
outnumbers and augments the access provided by private enterprises, 
like Starbucks.
    We are reducing the digital divide. Our Library District is one of 
5,400 libraries nationally that offer free technology classes for those 
who need to retool quickly with new digital skills. We also are one of 
13,000 U.S. public libraries that offer career assistance, available 
many more hours a week than the Department of Labor's 3,000 One-stop 
career centers.
    As we all learn to maximize diminishing public resources and 
increase the return on our public investments, this is a good time to 
look at the public libraries which are already built, staffed, and 
outfitted with internet access, public Wifi, technology, trainers and 
specialty programs provided in collaboration with community partners in 
all sectors.
    Today's situation is urgent. It is time to consider new workforce 
development models that are scalable to the high levels of 
unemployment, that can quickly mobilize resources to those in need, 
where they are, fueled by their inspirations and inquiries.
    The motto of many libraries today is ``Start Here. Go Anywhere.'' 
It reflects the free choice way people use library resources in times 
of transitions. We urge you to include public library roles and 
resources in the design of strategies to get many people to work, 
quickly, with relevant and current workforce skills.
    Again, many thanks for your attention and leadership on this issue. 
Many thanks to our host today, Opportunity Village.
                                 ______
                                 
    [Additional submissions of Mr. Heck follow:]

                           Department of Education,
                                       700 E. Fifth Street,
                                Carson City, NV, September 6, 2011.
Congressman Joe Heck, D.O.,
Nevada, 3rd District, 132 Cannon Building, Washington, DC 20515.
    Dear Congressman Heck: I would like to officially thank you for 
hosting the recent U.S. Congressional Hearing ``Examining Local 
Solutions to Strengthen Federal Job Training programs.'' I submit this 
follow-up testimony as a way to inform and educate about the tremendous 
need we have in Las Vegas and across Nevada for basic skills training, 
GED preparation, transitions to postsecondary and Career Pathways 
programming, and to demonstrate how they are tied directly to workforce 
and economic development.
    Over 18% of the U.S. population aged 16 and older do not have a 
high school credential and are not currently enrolled in an education 
program. Nearly 70% of jobs in the near future will require some 
postsecondary education or training. To close this gap it is imperative 
improve the basic education and skills training of our existing 
workforce.
    On August 5th, 2011, the Bureau of Labor Statistics released data 
that showed the unemployment rate rose for high school dropouts (15% 
nationally) while it simultaneously fell for high school graduates 
(9.3%) and college graduates (4.3%).
    As you know, we have one of the highest dropout rates in the nation 
right here in Nevada. The number of 16 to 19 year olds not enrolled in 
school and without a high school diploma ranks us 52nd in the United 
States, behind Puerto Rico.
    There are 160,000 students on adult education waiting lists across 
the country. We have people lined up around the block in Las Vegas, 
waiting to access adult education programs that they know will help 
them build their skills and re-enter the workforce.
    Approximately 50% of the nation's unemployed youth age 16-21 are 
functionally illiterate. The average income for a high school dropout 
is approximately $11,000. The average income for a high school graduate 
or GED recipient is approximately $23,000. For someone with an 
Associate's degree it is approximately $35,000, and for a Bachelor's 
degree it is roughly $50,000.
    This is critical in a state like Nevada where we have no state 
income tax. Consumer spending is crucial to our state and local 
economies. High school dropouts making $11,000 a year are not the 
solution to an economic recovery.
    Three out of four food stamp recipients score in the lowest two 
literacy levels. 75% of state prisoners lack a high school diploma, and 
60% of state prisoners are functionally illiterate. It costs 
approximately $23,500 to incarcerate an individual in the state of 
Nevada. On the other hand, Nevada WIA Title II programs' cost per 
student is $531. Our programs help build Nevada adults' basic skills, 
get them into college, get them out of the costly social service 
system, and get them a job. Adult Education is one part of the solution 
to turning around the economy and getting Americans off the 
unemployment line.
    Moody's Analytics recently released their Economic Outlook for Las 
Vegas. One of the three listed weaknesses was ``Low Educational 
Attainment.'' According to a 2009 NevadaWorks study, Northern Nevada's 
largest challenge to economic recovery is a ``Shortage of Highly 
Skilled Workers.''
    Nevada Adult Education is already collaborating with local 
businesses to provide on-the-job skills training. The College of 
Southern Nevada has adult education programs in place with the MGM 
Grand, the Aria, and the Four Seasons, to name a few. CSN helped design 
a customer service training program for non-native English speakers 
working for the Four Seasons Hotel Las Vegas, and according to 
management the program helped them obtain the AAA Five Diamond Award 
rating, resulting in a tremendous positive economic impact for the 
business.
    The Office of Management and Budget under the Bush Administration 
rated Adult Education as ``Effective,'' which is its highest rating. 
WIA Title II programs are extremely cost effective, at an average cost 
per student of only $531 in Nevada. In fiscal year 2010 we served over 
9,000 Nevada adults, and in the height of the recession and in the 
toughest job market in the country 54% of our students seeking 
employment found it, and 83% of our students wanting to retain or 
improve their employment did so.
    Here in Nevada and across the country, the jobs crisis is an 
education crisis. Adult Education programs are cost-effective, deliver 
great return on investment, and enable Nevadans to re-enter the 
workforce. We appreciate your support and are working hard to get 
Nevada back on track.
            Sincerely,
                   Brad Deeds, Adult Education Coordinator,
                                    Nevada State GED Administrator.
                                 ______
                                 

                 Prepared Statement of John Kelly, NISH

    Dear Chairman Kline and Members of the Committee: Thank you for 
taking time to focus on strengthening federal job programs, including 
the critical issue of employment of people with disabilities. As a 
national nonprofit agency facilitating the employment of tens of 
thousands of individuals with significant disabilities through the 
AbilityOne Program, NISH is pleased to share our insights and 
recommendation on this important issue.
    As former NISH Board Chairman Ed Guthrie noted in his hearing 
testimony we do not believe that effective job training programs can be 
achieved with a ``one size fits all'' approach. People with 
disabilities must be afforded a range of opportunities and a variety of 
options which will enable them to highlight their strengths and 
accommodate individual interests and needs.
    The AbilityOne Program is the largest source of employment of 
people who are blind or have significant disabilities in the United 
States. Nearly every American has benefited from the AbilityOne 
Program. Visit the Statue of Liberty, the Library of Congress, the 
Washington Monument, the Kennedy Center, or any of the Presidential 
Libraries, and it is likely that you have benefited from the hard work 
of AbilityOne employees. If you call the IRS customer service line, 
chances are good that you will be speaking with a person with a 
significant disability. American soldiers in their uniforms are likely 
wearing garments made by people with significant disabilities through 
the AbilityOne Program; and, more and more of those employed through 
the AbilityOne Program are, themselves, returning servicemen and women.
    As the Committee examines local solutions to strengthen federal job 
training programs and evaluates what works and what doesn't work in 
providing job training and employment opportunities for Americans with 
disabilities, NISH and the AbilityOne Program are proud to share a 
strong record of achievement and to talk about our current successes in 
providing employment to tens of thousands of Americans. For our 
employees--and their friends and family members--the AbilityOne Program 
plays a vital, irreplaceable role in their lives.
    Currently, the AbilityOne Program employs more than 47,000 
Americans who are blind or have significant disabilities through 
government purchases of products and services provided by nonprofit 
agencies. In 2010, NISH/AbilityOne nonprofit agencies employed 42,500 
employees who earned an average hourly wage of $11.23. The Program 
enabled these agencies to further employ another 81,500 individuals 
with significant disabilities outside of the Program.
    NISH is the national nonprofit agency designated by the US 
AbilityOne Commission, an independent Federal Agency, to support local 
nonprofit agencies that participate in the AbilityOne Program and 
provide employment opportunities for people with significant 
disabilities through federal contracts for services and products. NISH 
supports the NPA network as well as federal customers by providing 
business development and contract management assistance, engineering 
and technical advice, legislative and regulatory guidance, professional 
training and communications assistance.
    Through the AbilityOne Program, the federal government leverages 
procurement policies that support the important societal goal of 
providing employment to people who are blind or have significant 
disabilities while demonstrating integrity and good stewardship of 
federal contracting dollars. The Program is a cost-effective way to 
help people who are blind or have significant disabilities achieve 
greater independence as it enables many individuals to reduce 
dependence on government cash assistance and join the ranks of 
taxpayers.
    As a priority source of supply, the AbilityOne Program partners 
with federal customers to fulfill its mission through the delivery of 
quality products and services. The Program advances several lines of 
business that offer varying levels of skills requirements ensuring that 
AbilityOne employees have jobs that meet their needs today and upward 
mobility for tomorrow. These areas include:
    <bullet> Call Center Support
    <bullet> Contract Closeout
    <bullet> Custodial Services
    <bullet> Dining Facility
    <bullet> Fleet Management
    <bullet> Food Service Management
    <bullet> Grounds Maintenance
    <bullet> Housekeeping Services
    <bullet> Laundry Services
    <bullet> Military Products
    <bullet> Total Facilities Management
    AbilityOne employees do more than deliver high quality products and 
services at a fair market price; they also return value to the American 
taxpayer. A recent independent study revealed that employment in key 
AbilityOne business lines reduced AbilityOne employees' use of 
government entitlements. These studies also identified a substantial 
return on taxpayer investment in the AbilityOne Program.
    Employment opportunities created through the AbilityOne Program 
have increased substantially over the last two decades. During this 
same time period, employment for people with significant disabilities 
in the commercial sector has remained flat or decreased slightly, and 
employment for people with significant disabilities in the federal 
government remains low. AbilityOne has been a critical source of 
employment for individuals with significant disabilities at a time when 
alternative options are diminishing or not available.
    AbilityOne and NISH have crafted dynamic strategic plans to address 
these growing employment needs. These plans include tactics that 
leverage state-of-the-art technologies and cutting-edge rehabilitation 
supports leading to upward mobility and independent community living 
goals for people with significant disabilities in the AbilityOne 
Program.
    An example is the Quality Work Environment (QWE) initiative which 
provides a program-wide framework to implement AbilityOne Employer best 
practices to optimize earnings for people with significant disabilities 
and capitalize on career advancement and community-based employment 
consistent with the individual's informed choice. QWE is a continuous 
improvement process that can be tailored to the needs of each 
AbilityOne agency and its employees. A QWE clearinghouse is now under 
active development for nonprofit agencies to exchange and share these 
best practices.
    Additionally, since 2003 AbilityOne Program has had a Memorandum of 
Understanding with the U.S. Department of Veteran Affairs, Compensated 
Work Therapy (CWT) Program. The partnership agreement promotes local 
relationships between AbilityOne nonprofit agencies and Veteran Affairs 
CWT offices. This allows VA to pre-screen veterans to match AbilityOne 
job requirements and to refer qualified veterans with significantly 
disabilities to participate in AbilityOne job coaching programs. 
Approximately 2,100 veterans with disabilities have been employed since 
partnership inception.
    Lastly through our Institute for Economic Empowerment, NISH is 
pursuing a major research and development activity: Expanding Choice 
for Individuals with Intellectual and Developmental Disabilities. 
Through this initiative we seek to expand supported employment 
opportunities for employees (including those currently working in 
facility-based settings) and clients (e.g., day habilitation) of 
community rehabilitation programs and transition-age youth with 
significant disabilities. We also seek to ensure that these individuals 
have the information and experience necessary to make an informed 
choice among real employment alternatives that include community-based, 
integrated employment.
    NISH looks forward to continuing to work with Congress, the 
Administration, and the disability community to find solutions through 
a variety of strategies--including the AbilityOne Program--to the 
unacceptably low rate of employment for people with significant 
disabilities.
    Thank you for considering our statement. Please contact John Kelly 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b61606e6767724b656278632564796c">[email&#160;protected]</a> or (571) 226-4691 if you have any questions.
                                 ______
                                 

        Prepared Statement of Brian Patchett, President and CEO,
                      Easter Seals Southern Nevada

    Mr. Chairman and Members of the Committee: My name is Brian 
Patchett and I serve as President and CEO of Easter Seals Southern 
Nevada (ESSN), a non-profit organization that helps children and adults 
with disabilities in the Las Vegas region live independently and 
succeed in the community. I am pleased to provide local perspective on 
how Easter Seals Southern Nevada teams with businesses and other 
workforce and community partners to train and find jobs for Nevada 
residents, including those with disabilities.
    While I will concentrate my testimony on local solutions and 
services, I did want to briefly highlight Easter Seals' national 
commitment to employing people with disabilities. Individuals with 
disabilities are underrepresented in the workplace despite their 
enormous talent and ability. Easter Seals and its nationwide affiliate 
network believe individuals with disabilities should be empowered and 
supported to find jobs in their communities that match their personal 
interests and abilities. Fifty Easter Seals affiliates across the 
country help people with disabilities find and retain jobs through 
individualized, person-centered employment services, including 
employment planning, skills training, job search and development, and 
job placement. Easter Seals does not support the one-size-fits-all 
approach to employment services that limits choice for individuals with 
disabilities. Easter Seals and its national affiliate network support 
the decisions and choices of consumers and their families.

Easter Seals Southern Nevada
    For three decades, Easter Seals Southern Nevada has helped people 
with disabilities become self-sufficient by providing education and 
direct services. ESSN professional staff can be found throughout the 
region helping individuals with disabilities of all ages live, learn, 
work and play in their communities. For example, an ESSN early 
intervention therapist facilitates a social skill groups for children 
to help them meet developmental targets through physical and 
occupational therapy strategies. A trained ESSN professional organizes 
a community outing for seniors with disabilities who participate in our 
adult day program. An ESSN staff specialist helps a young adult learn 
to cook, ride a bus and balance a checkbook through our supported 
living program. Since becoming CEO in 2004, Easter Seals Southern 
Nevada has nearly doubled in program and staff size to help serve more 
individuals with disabilities throughout our region. Last year, we 
provided essential community services to more than 6,000 Nevadans.

Employment Services at Easter Seals Southern Nevada
    I would like to focus the remainder of my testimony on our job 
training and employment services. Nevada has the highest unemployment 
rate in the country.\1\ The unemployment rate among individuals with 
disabilities nationwide is even higher.\2\ Easter Seals Southern Nevada 
is working with local, state and federal partners to help address high 
unemployment by providing Nevada job seekers (including those with 
disabilities) with the tools and skills needed to succeed in the 
workforce. We partner with area businesses, local and state workforce 
investment boards, and federal agencies to respond to immediate 
workforce needs by providing innovative and effective employment 
services. Easter Seals Southern Nevada employment specialists assist 
jobseekers by assessing their work interests and abilities, building 
strong resumes and interview skills, providing skills training, 
assisting in job search and development, and offering on-the-job 
training and follow-along supports. For example, Easter Seals Southern 
Nevada received Workforce Investment Act (WIA) adult and dislocated 
workers funding through our local workforce investment board, Nevada 
Workforce Connections, to help find and train workers for a furniture 
manufacturing plant that opened in 2010. We partnered with the employer 
and held a large job fair on campus to recruit skilled candidates. An 
example would be an experienced and certified forklift driver who has a 
physical disability and is hearing impaired. The employer accommodated 
by using a laser light for the candidate to guide safely which enhanced 
the audible back up alarm and horn for maneuvering. In addition, we 
partnered with the Nevada Housing Division to provide jobseekers with 
basic weatherization and green energy training. Several skilled trades, 
such as unemployed construction workers, flocked to this opportunity to 
expand their credentials to enter the green market. Nevadans with 
varying disabilities, low-income persons, seniors, and veterans were in 
this pool of candidates. These are great examples of how federal 
programs are utilized by states and communities to address local 
challenges and opportunities.
---------------------------------------------------------------------------
    \1\ U.S. Department of Labor Bureau of Labor Statistics, July, 
2011, http://www.bls.gov/web/laus/laumstrk.htm.
    \2\ U.S. Department of Labor Bureau of Labor Statistics, July, 
2011, http://www.bls.gov/news.release/empsit.t06.htm.
---------------------------------------------------------------------------
    Our primary employment mission is to help jobseekers with 
disabilities learn skills to successfully enter the workforce or to 
return to work after an illness or injury. We utilize vocational 
rehabilitation (VR) funding authorized through Title IV (Rehabilitation 
Act) of the Workforce Investment Act. The Nevada Bureau of Vocational 
Rehabilitation (BVR) refers Nevadans with disabilities to Easter Seals 
Southern Nevada for employment services, including assessment, 
training, and placement. Easter Seals Southern Nevada also provides 
assistive technology evaluations, workplace assessments and training 
and other tools to help individuals referred to us by BVR succeed in 
the workplace through simple technology accommodations. Individuals 
with disabilities can also work in our warehouse facility or at one of 
our community worksites, doing real work and earning a paycheck which 
furthers their ultimate goal of independence. Easter Seals Southern 
Nevada specializes in training and employment in culinary and food 
service, plant care and horticulture, janitorial and grounds keeping, 
and fulfillment and inventory control.

Recommendations for Improving Vocational Rehabilitation
    The vocational rehabilitation program continues to be the principal 
federal program for helping people with disabilities find work. I would 
like to offer recommendations for improving the VR program from the 
vantage point of both a VR consumer and professional. At age seven, I 
became legally blind when blood vessels burst across the macula leaving 
a residue of scar tissue that impaired my vision. When I turned 18, I 
had my first experience with vocational rehabilitation services--as a 
VR client. In addition, my educational and professional careers have 
intersected the vocational rehabilitation system. I earned Masters' 
Degrees in Rehabilitation Counseling and Public Administration from 
Syracuse University and have dedicated my entire career working to help 
increase employment opportunities for people with disabilities, first 
as a certified rehabilitation counselor and now as president and CEO of 
a major provider of vocational rehabilitation services. I have worked 
with vocational rehabilitation programs in several states. I have 
watched the evolution of the Rehabilitation Act of 1973 to today. My 
recommendations are based on my personal and professional experiences 
with the vocational rehabilitation system.
    I. School to Work Transition: Preparing high school students with 
disabilities for the world of work has been one of the great challenges 
for the vocational rehabilitation system. My experience as a consumer 
of VR services and as a program partner in several states, including 
here in Nevada, has led me to conclude that few states provide this 
service in any meaningful way. To increase transition success, students 
with disabilities, beginning at age 14, should have access to 
transition services, including: career exploration, career counseling, 
assistive technology, job shadowing, summer employment, mobility 
training (i.e. access to buses), resume building, college exploration 
and employment. The vocational rehabilitation system must include a 
greater focus on the transition of students through better coordination 
with schools and increased access to transition and employment 
services.
    II. Access to Assistive Technology: Assistive technology (AT) is a 
device or service which helps a person to access some part of life. 
Assistive technology may be an adapted keyboard for someone who has 
difficultly typing, software that enlarges characters and images on a 
screen for an individual who is visually impaired, or adjustable desks 
for persons using mobility devices such as a wheelchair. Assistive 
technology tools help individuals with disabilities to successfully 
perform the essential functions of a job. Unfortunately, Nevadans with 
disabilities who qualify for VR services often do not receive adequate 
assistive technology services and devices. Lack of AT services was 
common in VR systems I worked with in other states. An assistive 
technology evaluation should be offered in an individual's employment 
plan. In addition, individuals must receive training on the technology 
to increase their success on the job.
    III. Supported Employment: From my experience, an individualized 
plan for employment developed by a state vocational rehabilitation 
counselor does not always provide access to the supports an individual 
needs to be successful in the workplace. Job coaching and especially 
assistive technology are areas that are usually lacking in this 
process--both of which are critical components of job maintenance. The 
vocational rehabilitation system must improve access to employment 
supports, including group supported employment, to increase employment 
of people with the most significant disabilities.
Conclusion
    Vocational rehabilitation and other federal job programs that allow 
state and community partners to address local employment needs must be 
strengthened in the reauthorization of the Workforce Investment Act/
Rehabilitation Act. Easter Seals Southern Nevada has a demonstrated 
record of success in developing employment solutions for local 
workforce needs. We welcome the opportunity to continue our work with 
local, state and federal partners through critical federal training 
programs within WIA. Thank you for the opportunity to share with you 
some local examples of how Easter Seals Southern Nevada utilizes 
federal workforce training programs to help businesses and jobseekers 
in Nevada. Thank you.
                                 ______
                                 
    [Additional submission of Mr. Aguero follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [Additional submissions of Mr. Guthrie follow:]

                                                    ACCSES,
                                                     June 20, 2011.
Senator Tom Harkin, Chair,
Senate Health, Education, Labor and Pensions Committee, 428 Dirksen 
        Senate Office Building, Washington, DC 20510.
Senator Mike Enzi, Ranking Member,
Senate Health, Education, Labor and Pensions Committee, 835 Hart Senate 
        Office Building, Washington, DC 20510.
Senator Patty Murray, Chair,
Subcommittee on Employment and Workplace Safety, 143 Hart Senate Office 
        Building, Washington, DC 20510.
Senator Johnny Isakson, Ranking Member,
Subcommittee on Employment and Workplace Safety, 131 Russell Senate 
        Office Building, Washington, DC 20510.
RE: Comments Regarding Proposed Amendments to the Rehabilitation Act 
    Included in Title V of the Staff Discussion Draft of the Workforce 
    Investment Act of 2011

    Dear Senators: Thank you for the opportunity to review the Staff 
Discussion Draft regarding amendments to the Rehabilitation Act 
included in Title V of the Workforce Investment Act of 2011. ACCSES 
applauds your efforts to work on a bipartisan basis to expand and 
improve employment opportunities for all individuals with disabilities, 
including individuals with the most significant disabilities. ACCSES 
represents more than 80 partner organizations that work to promote and 
enhance community-based solutions that maximize employment and 
independent living opportunities for people with disabilities through 
collaboration with government and other stakeholders.
    Below are our major recommendations for improving the draft bill.
             community rehabilitation program (definition)
    Current law defines the term ``community rehabilitation program'' 
to mean a program that enables an individual with a disability to 
maximize opportunities for employment, including career advancement. 
The bill [page 7, lines 14-17] strikes ``employment and career 
advancement'' and inserts ``for competitive integrated employment and 
for career advancement.''
    Recommendation: Strike page 7, lines 14-17, thereby returning to 
current law.
    Rationale: This is a definition and thus should accurately reflect 
the breadth and depth of the services and supports provided by 
community rehabilitation programs. It is perfectly appropriate for the 
substantive provisions of the bill to prescribe the specific role of 
community rehabilitation programs under the Rehabilitation Act i.e., 
maximize opportunities for competitive integrated employment and career 
advancement. In fact, many of the other amendments to the bill 
accomplish this objective.

             COMPETITIVE INTEGRATED EMPLOYMENT (DEFINITION)

    Under the current regulations implementing the Rehabilitation Act, 
the term ``competitive employment'' means work in the competitive labor 
market that is performed on a full-time or part-time basis in an 
integrated setting and for which an individual is compensated at or 
above minimum wage, but not less than the customary wage and level of 
benefits paid by the employer for the same or similar work performed by 
individuals who are not disabled. [34 CFR 361.5(b)(11)]
    Under the current regulations [34 CFR 361.(33)], the term 
``integrated setting'' with respect to the provision of services, means 
a setting typically found in the community in which applicants or 
eligible individuals interact with non-disabled individuals other than 
non-disabled individuals who are providing services to those applicants 
or eligible individuals. With respect to an employment outcome, the 
term ``integrated setting'' means a setting typically found in the 
community in which applicants or eligible individuals interact with 
non-disabled individuals, other than non-disabled individuals who are 
providing services to those applicants or eligible individuals, to the 
same extent that non-disabled individuals in comparable positions 
interact with other persons.
    The definition in the bill [page 8, lines 6-24 thru page 9, lines 
1-15] includes new terminology that does not add clarity but rather 
adds confusion. For example, what does ``* * * similar training, 
experience and skills'' mean for someone in supported or customized 
employment and who needs ongoing services and supports'' In the phrase 
``receives health and employment benefits comparable to those of other 
employees,'' which other employees are being referred to: Finally, what 
is the meaning of ``at a location where the employee interacts 
frequently with other employees who are not individuals with 
disabilities (not including supervisory personnel)''?
    Recommendation: Strike page 8, lines 6-24 thru page 9, lines 1-15 
and insert:
    ``(5) COMPETITIVE INTEGRATED EMPLOYMENT.----
    (A) IN GENERAL.--The term ``competitive integrated employment'' 
means work in the competitive labor market that is performed on a full-
time or part-time basis in an integrated setting and for which an 
individual is compensated at or above minimum wage, but not less than 
the customary wage and level of benefits paid by the employer for the 
same or similar work performed by individuals who are not disabled. An 
``integrated setting'' means a setting typically found in the community 
in which individuals with disabilities interact with non-disabled 
individuals, other than non-disabled individuals who are providing 
services to those applicants or eligible individuals, to the same 
extent that non-disabled individuals in comparable positions interact 
with other persons.
    Rationale: We support adding a definition to the statute but the 
definition should add clarity, not confusion.

                   SUPPORTED EMPLOYMENT (DEFINITION)

    Under current law, the term ``supported employment'' means 
competitive work in integrated work settings, or employment in 
integrated work settings in which individuals are working toward 
competitive work. The bill deletes the phrase ``or employment in 
integrated work settings in which individuals are working toward 
competitive work.'' Current law also includes a reference to the need 
for extended services. This reference is deleted in the bill [page 17, 
lines 19-24 thru page 18, lines 1-8]
    Recommendation:
    Strike page 17, lines 19-21 and insert the following:
    ``(38) SUPPORTED EMPLOYMENT.--The term `supported employment' means 
competitive integrated employment or employment in integrated work 
settings in which individuals are working toward competitive work, 
individualized and customized''
    On page 18, line 8, after the word ``services'' insert the 
following
    ``for the period, and any extension described in paragraph 39(C) 
and extended services after the transition described in paragraph 13(C) 
in order to perform such work.''
    Rationale: Deletions of flexibility in current law will result in 
diminished employment opportunities for persons with the most 
significant disabilities.

                          TRANSITION SERVICES

    The bill makes numerous references to ``transition services'' 
(which is defined in current law) but on page 12, line 21 strikes the 
definition.
    Recommendation: Strike page 12, line 21.
    Rationale; The phrase is used frequently throughout the bill and 
thus should be defined. The current definition is appropriate.
      transition set aside and pre-employment transition services
    The bill (Section 519(b)) adds a new Section 110(b) to the 
Rehabilitation Act specifying that from any state allotment the state 
must reserve 10 percent of the allotted funds for the provision of 
transition services to assist students with disabilities and youth with 
disabilities in transitioning from education to employment, which 
includes pre-employment transition services under section 114. [pages 
79-80 of the bill]
    The bill (Section 522 of WIA), adds Section 114 to the 
Rehabilitation Act. The new provision specifies that from funds 
reserved under Section 110(d) and from other sources each state shall 
ensure that the designated state unit shall provide, or arrange for the 
provision of, pre-employment transition services for all students with 
disabilities who are in need of such services. Each local office of a 
designated state unit must designate at least one staff person to carry 
out the responsibilities of a local Pre-Employment Transition 
Coordinator. The Secretary of Education and the Secretary of Labor 
shall each designate a lead staff person to fulfill the 
responsibilities of a National Pre-Employment Transition Coordinator. 
These persons may be assigned additional responsibilities. [pages 88-89 
of the bill]
    Recommendation: Please clarify: does this provision establish a new 
``entitlement'' for ``all'' students to receive pre-employment 
transition services, regardless of the amount reserved for transition 
services under a state's allotment or is the obligation subject to the 
level of appropriations? Also please clarify how this provision works 
in the context of the ``order of selection'' provision, i.e., are all 
students entitled to these services or only those who are determined to 
be individuals with the ``most significant disabilities''?

               RESERVATION FOR WORKFORCE INNOVATION FUND

    The bill (Section 519(c)) specifies that if appropriations for 
Title I of the Rehabilitation Act exceed a specified amount, the 
Commissioner shall reserve a specified amount, not to exceed $50 
million for Workforce Innovation Funds under Section 142 of WIA [Pages 
80-81 of the bill]
    Recommendation: Strike page 80, lines 3-25 thru page 81, lines 1-6 
or in the alternative amend Section 142 of WIA as follows:
    Add the following language to Sec. 142(b)(3):
    (D) Community-based organizations, consortia, or intermediaries.--
To be identified as a community-based organization, consortia, or 
intermediary shall demonstrate that
    (i) the application has been developed in consultation other state 
or local stakeholders; and
    (ii) leverages and aligns resources of the local organizations and 
stakeholders to,
    (I) improve employment prospects and outcomes for people with 
employment barriers, including individuals with disabilities, or lack 
skills needed to find jobs and advance in careers.
    Change Sec. 142(b)(5) as follows:
    (I) AMOUNT.--The amount of the matching share under this subsection 
for a program year may not be less than 50 percent 25 percent of the 
costs of the programs and activities that are carried out under the 
grant.
    Rationale: ACCSES supports ``innovative new strategies and 
activities, or the replication and expansion of effective evidence-
based strategies and activities that are designed to align programs and 
strengthen the workforce development system * * *'' However, ACCSES is 
concerned with the ``reservation'' that will divert critical funds 
targeted individuals with the most significant disabilities served 
under Title I of the Rehabilitation Act.
    We are also concerned that the discussion draft would not allow 
innovative community-based organizations (CBOs) to apply for Workforce 
Innovation and Replication grants. While CBOs could be included in 
applications if included in an application from a state partnership or 
regional entity, innovative activities and partnerships initiated by 
CBOs, especially in states or regions that are less receptive to 
change, would be unlikely to benefit from this new source of funds. 
ACCSES believes that innovative CBOs should be eligible to compete for 
these funds.
    If CBOs were eligible to compete directly for Workforce Innovation 
and Replication Funds, ACCSES is concerned that the matching funds 
required under the discussion draft would present a significant 
challenge for many innovative CBOs and local partnerships. Fragmented 
and shifting funding sources already present a challenge to 
implementing and sustaining innovative and promising strategies.
 national transition initiative for youth with significant disabilities
    The purpose of this new initiative is to demonstrate and increase 
systemic reforms necessary for promoting the effective transition of 
covered students from secondary school to competitive integrated 
employment settings and opportunities and ultimately to create enduring 
systems of service delivery and training within states that facilitate 
the transition of covered students from school to post-secondary life 
with the emphasis on achieving the outcome of competitive integrated 
employment. [page 129] Covered students are (1) individuals within a 
specified age range for whom, without an alternative intervention, the 
anticipated outcome would likely be placement in a segregated facility-
based day habilitation program or a vocational or employment program 
where the individual is paid less than minimum wage, or a lack of 
further training and assistance and (2) individuals with an 
intellectual disability, individuals with a developmental disability or 
individuals with mental illness. [page 130]
    Awards may be made to eligible entities to carryout activities 
aimed at creating systemic reform focused on the improvement of 
employment outcomes in integrated settings at minimum wage or higher 
with commensurate benefits for covered students. Eligible entities 
include a consortium that is managed by a multidisciplinary team to 
include the State Department of Education, the State VR agency and 
either the State DD agency or the State Department of Mental Health 
Services, or both; includes representatives from the developmental 
disability community and mental health services community as well as 
individuals with disabilities; and additional public and private 
entities with demonstrated expertise in providing supported employment 
services in integrated settings at minimum wage or higher with 
commensurate benefits and that have a proven track record in 
successfully running supported employment programs, provide employment 
services that are exclusively integrated community-based supported 
employment services resulting in jobs at minimum wage or higher with 
commensurate benefits and other expertise * * * [page 132-133] Also, 
under the bill an eligible entity that receives a grant shall not use 
any funding on activities that result in individuals being placed in 
center-based services (including sheltered workshops, day habilitation, 
and similar settings) as an employment or postsecondary outcome. [page 
138]
    Recommendation: ACCSES supports the purpose of this new initiative, 
but opposes several provisions included in the bill. If these 
problematic provisions are not revised, ACCSES opposes the inclusion of 
this provision.
    (1) On page 129, line 25, delete the word ``segregated''.
    (2) On page 132, line 22, delete the word ``exclusively''.
    (3) Delete lines 4-10 on page 138.
    Rationale:
    The use of the word ``segregated'' is pejorative in the context of 
the bill and the deletion of the term does not affect the substance of 
the provision.
    Limiting entities that can participle in the initiative to those 
who provide services that are ``exclusively'' integrated community-
based supported employment services would exclude numerous qualified 
CRPs who provide supported employment, customized employment as well as 
center-based employment. This limitation in the bill is of particular 
concern in rural areas in which only one provider may exist.
    The ``prohibited activities'' provision is a gratuitous statement 
directed against center-based programs that play a key role in 
enhancing employment opportunities for significant numbers of persons 
with the most significant disabilities. The focus and purpose of the 
initiative is crystal clear without this provision.

EMPLOYMENT OF INDIVIDUALS WITH SIGNFICANT DISABIILITIES AT A SUBMINIMUM 
                                  WAGE

    The bill (Section 559) adds Section 511 to the Rehabilitation Act--
Employment of Individuals with Significant Disabilities at a Subminimum 
Wage. [page 163-170 of the bill]
    The provision specifies, among other things, that an entity may not 
employ an individual at a special wage under Section 14(c) of FLSA, 
unless the entity has complied with the following--the individual, 
regardless of age, is receiving work readiness or job training services 
provided by a certificate holder, as part of the individual's 
preparation for competitive employment for a period of not more than 6 
months or a longer period, if the individual wishes to continue to 
receive such services after an initial 6-month period and is reassessed 
by the agency referring the individual for such services, or an 
appropriate entity, not less often than every 6 months, to determine 
the individual's ability to transition to competitive employment. The 
bill also specifies that nothing shall be construed to prohibit a VR 
agency from allowing an individual to receive work readiness or job 
training services provided by a certificate holder, for a period of not 
more than 6 months.
    Recommendation:
    Strike page 165, lines 23-25 and page 166, lines 1-17 and insert 
after line 3 on page 171 the following:
    ``(c) Nothing in Section 511 of the Rehabilitation shall be 
construed to prohibit a designated State unit from allowing an 
individual to receive work readiness or job training services provided 
by a certificate holder for a period determined by such designated 
State unit under Section 101(a)(14) of the Rehabilitation Act relating 
to extended employment or other employment under special certificate 
provisions of the Fair Labor Standards Act.''
    Rationale: We are proposing a technical and conforming amendment in 
lieu of the text in the bill. The policy objectives of including the 
provisions described above are appropriate but the drafting and 
placement of the provision are confusing. The provisions in the staff 
discussion draft are confusing because they focus on the ongoing 
authority of the designated state unit whereas the other three 
conditions in the bill (pages 163-165) relate to the characteristics of 
the individuals to be served.

                          SUPPORTED EMPLOYMENT

    Section 563 of the bill replaces current Title VI B of the 
Rehabilitation Act) [page 173-181 of the bill] Most of the provisions 
in the bill are consistent with current law, including the submission 
of a state plan supplement for providing supported employment. One 
proposed modification in the draft bill relates to the contents of the 
state plan--supported employment services will include placement in an 
integrated setting based on the unique strengths, resources, 
priorities, concerns, abilities, capabilities, interests, and informed 
choice of individuals with the most significant disabilities. Current 
law specifies that ``supported employment will include placement in an 
integrated setting for the maximum number of hours possible based on 
the unique strengths. * * *''
    Recommendation:
    On page 180, strike lines 14-19 and insert the following:
    ``(G) supported employment services will include placement in an 
integrated setting for the maximum number of hours possible based on 
the unique strengths, resources, priorities, concerns, abilities, 
capabilities, interests, and informed choice of individuals with the 
most significant disabilities.''
    Rationale: The inclusion language from current law conforms this 
provision to language used elsewhere in the bill (see page 14, line 
13).

ADVISORY COMMITTEE ON INCREASING COMPETITIVE INTEGRATED EMPLOYMENT FOR 
                     INDIVIDUALS WITH DISABILITIES

    Section 802 of the bill (pages 227-232) directs the Secretary of 
Labor to establish an Advisory Committee on Increasing Competitive 
Integrated Employment for Individuals with Disabilities. In addition to 
the appointment of specified agency representatives, the bill directs 
the Secretary of Labor to appoint specified nonagency representatives 
including at least 2 self-advocates;
    2 providers that employ individuals with intellectual disabilities 
or developmental disabilities in competitive integrated employment and 
are not using a certificate issued under 14(c); 2 providers of 
employment services that employ individuals with intellectual 
disabilities in competitive employment and previously employed such 
individuals under certificates issued under section 14(c) but are not 
currently using such a certificate; 2 representatives of a national 
disability advocacy organization representing adults with intellectual 
disabilities or developmental disabilities; 2 experts with a background 
in academia or research and expertise in employment and wage policy 
issues; 2 representatives from the employer community or a national 
employer organization.
    The bill directs The Committee to study and prepare findings, 
conclusions, and recommendations for the Secretary on ways to reduce 
reliance on the use of the 14(c) certificate program except in limited 
circumstances or for training purposes, increase employment 
opportunities for individuals in competitive integrated employment, and 
increase oversight of and accountability for the use of 14(c) 
certificates.
    Recommendation:
    Delete page 227 thru page 232.
    Rationale:
    The bill includes numerous changes to enhance the outcome of 
competitive integrated employment, including policy directives, 
comprehensive initiatives (particularly for youth), studies, and 
authority to the Office of Disability Employment to, among other 
things, increase employment opportunities for individuals with 
significant disabilities in competitive integrated employment (See page 
226, lines 9-11). The bill also includes numerous data collection and 
reporting provisions to document the impact of these initiatives. We 
need to understand the impact of these initiatives so that policymakers 
in the legislative and executive branches can make informed 
recommendations. Further, the phrasing of the first duty goes well 
beyond ``reducing reliance on the use of 14 (c)'', which was agreed to 
during the Harkin Retreat. Finally, the selection of non-agency 
participants excludes many of the key experts in the employment of 
persons with the most significant disabilities. Query: would it be 
appropriate to preclude the involvement of farm-state policy experts in 
a discussion about farm-subsidies?
    If you have any questions, please contact me at 202.349.4259 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6115130700130c041321020e0c020012154f0f04154f">[email&#160;protected]</a>
            Sincerely,
                                              Terry Farmer,
                                           Chief Executive Officer.
                                 ______
                                 
    [The 2010 Community Impact Assessment of Las Vegas' 
Opportunity Village may be accessed at the following Internet 
address:]

    http://www.leg.state.nv.us/Session/76th2011/Exhibits/Senate/HHS/
                              SHHS653D.pdf

                                 ______
                                 
    [Whereupon, at 1:00 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
